No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

APPENDIX 1
Opinion 6th Circuit Court of Appeals (May 5, 2020)
1(a)
Order Denying Re-Hearing (June 17, 2020)
1(b)
Order Denying Re-Hearing En Banc (July 2, 2020)

Case: 20-5013

Document: 8-1

Filed: 05/05/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts. gov

Filed: May 05, 2020

Mr. Zachary Lewis Barker
Office of the Attorney General
of Tennessee
P.O. Box 20207
Nashville, TN 37202-0207
Mr. Genaro Edgar Espinosa Dorantes
Turney Center Industrial Complex
1499 R.W. Moore Memorial Highway
Only, TN 37140
Re: Case No. 20-5013, Genaro Dorantes v. Kevin Genovese
Originating Case No. 3:19-cv-00543
Dear Counsel and Mr. Dorantes:
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Monica M. Page
Case Manager
Direct Dial No. 513-564-7021
cc: Mr. Kirk L. Davies
Enclosure
No mandate to issue

(1 of 4)

Case: 20-5013

Document: 8-2

Filed: 05/05/2020

Page: 1

(2 of 4)

No. 20-5013
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
(,

FILED

GENARO EDGAR ESPINOSA DORANTES,
Petitioner-Appellant,
v.
KEVIN GENOVESE, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

May 05, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: WHITE, Circuit Judge.

Genaro Edgar Espinosa Dorantes, a Tennessee prisoner proceeding pro se, appeals the
district court’s judgment dismissing as untimely his petition for a writ of habeas corpus filed under
28 U.S.C. § 2254. Dorantes has moved for a certificate of appealability and for leave to proceed
in forma pauperis.
A jury found Dorantes guilty of first-degree felony murder and aggravated child abuse, and
the trial court sentenced him to consecutive prison terms of life and 22 years. The Tennessee Court
of Criminal Appeals reversed the aggravated child abuse conviction but otherwise affirmed the
trial court’s judgment. State v. Dorantes, No. M2007-01918-CCA-R3-CD, 2009 WL 4250431
(Term. Crim. App. Nov. 30, 2009). On January 25, 2011, the Tennessee Supreme Court reinstated
the conviction and sentence for aggravated child abuse. State v. Dorantes, 331 S.W.3d 370 (Term.
2011).
In June 2019, Dorantes filed a § 2254 petition, arguing that there was insufficient evidence
to support his convictions. The district court dismissed the petition as untimely and declined to
issue a certificate of appealability.
Dorantes now moves this court for a certificate of appealability, arguing that his habeas
petition is timely because he is entitled to a later start date for the limitations period due to a state-

Case: 20-5013

Document: 8-2

Filed: 05/05/2020

Page: 2

No. 20-5013
-2created impediment, see 28 U.S.C. § 2244(d)(1)(B), and he is entitled to equitable tolling.
Dorantes bases both arguments on his limited ability to speak and understand English, the fact that
he could not understand the translator appointed in his state-court proceedings, the State’s failure
to provide him with an adequate translator, and his appellate counsel’s failure to advise him of his
right to seek review in the United States Supreme Court, file a state post-conviction petition, and
file a § 2254 petition.
To obtain a certificate of appealability, a petitioner must make “a substantial showing of
the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2); Miller-El v. Cockrell, 537 U.S. 322,
336 (2003). When a district court denies a petition on procedural grounds without reaching the
prisoner’s underlying constitutional claim, a petitioner must show that jurists of reason would find
it debatable whether the petition states a valid claim of the denial of a constitutional right and that
jurists of reason would find it debatable whether the district court was correct in its procedural
ruling. See Slack v. McDaniel, 529 U.S. 473, 484 (2000).
Reasonable jurists would not debate the district court’s determination that Dorantes’s
habeas petition is untimely. Under 28 U.S.C. § 2244(d)(1)(A), the applicable one-year limitations
period began running 90 days after the Tennessee Supreme Court issued its opinion in Dorantes’s
direct appeal. See Bronaugh v. Ohio, 235 F.3d 280, 283 (6th Cir. 2000). Dorantes does not argue,
and nothing in the record shows, that he is entitled to a later start date under § 2244(d)(1)(C) or
(D) or statutory tolling under § 2244(d)(2). And Dorantes is not entitled to a later start date under
§ 2244(d)(1)(B) because he has not shown that the State created an impediment that actually
prevented him from filing a federal petition. See Colwell v. Tanner, 79 F. App’x 89, 93 (6th Cir.
2003). Thus, absent equitable tolling, the limitations period expired in April 2012, and Dorantes’s
petition is untimely.
A petitioner is entitled to equitable tolling only if he shows (1) that he has been pursuing
his rights diligently; and (2) that an extraordinary circumstance stood in his way and prevented
timely filing. Holland v. Florida, 560 U.S. 631, 649 (2010). Dorantes has not made the required
showing because he has not shown that he exercised reasonable diligence in pursuing his rights,

(3 of 4)

Case: 20-5013

Document: 8-2

Filed: 05/05/2020

Page: 3

No. 20-5013
-3 see id. at 653, and none of his arguments for equitable tolling establish that an extraordinary
circumstance prevented him from filing a timely federal petition.
Accordingly, Dorantes’s motion for a certificate of appealability is DENIED, and his
motion for leave to proceed in forma pauperis is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(4 of 4)

No. 20-5013
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
GENARO EDGAR ESPINOSA DORANTES,

)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
KEVIN GENOVESE, WARDEN
Respondent-Appellee.

FILED
Jun 17, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, GILMAN, and LARSEN, Circuit Judges.
Genaro Edgar Espinosa Dorantes, a Tennessee prisoner, petitions the court to rehear en
/
banc its order denying him a certificate of appealability. The petition has been referred to this
panel, on which the original deciding judge does not sit, for an initial determination on the merits
of the petition for rehearing. Upon careful consideration, the panel concludes that the original
deciding judge did not misapprehend or overlook any point of law or fact in issuing the order and,
accordingly, declines to rehear the matter. Fed. R. Add. P. 40(a1.
The Clerk shall now refer the matter to all of the active members of the court for further
proceedings on the suggestion for en banc rehearing.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No. 20-5013
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

GENARO EDGAR ESPINOSA DORANTES
Petitioner-Appellant,
V.

KEVIN GENOVESE, WARDEN,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)

FILED
Jul 02, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, GILMAN, and LARSEN, Circuit Judges.
Genaro Edgar Espinosa Dorantes petitions for rehearing en banc of this court’s order
entered on May 5, 2020, denying his application for a certificate of appealability. The petition was
initially referred to this panel, on which the original deciding judge does not sit. After review of
the petition, this panel issued an order announcing its conclusion that the original application was
properly denied. The petition was then circulated to all active members of the court, none of
whom requested a vote on the suggestion for an en banc rehearing. Pursuant to established
court procedures, the panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

APPENDIX 2
Order, U.S. District Court M.D. Tenn. (December 3, 2019)

GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner, v. KEVIN GENOVE... Page I of 5

WESTLAW
GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner, v. KEVIN GENOVESE, Respondent.
United States District Court, M.D. Tennessee, Nashville Division.

December 3, 2019

Slip Copy

2019 Wl 6524888

(Approx. 5 pages)

2019 WL 6524888
Only the Westlaw citation is currently available.
United States District Court, M.D. Tennessee, Nashville Division.

GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner,
v.
KEVIN GENOVESE, Respondent.
NO. 3:i9-cv-00543
12/03/2019
JUDGE RICHARDSON
MEMORANDUM OPINION
*1 Respondent moves to dismiss this habeas corpus action as untimely. (Doc. No. 11.)
Petitioner has responded in opposition to the motion (Doc. No. 13), and Respondent has
replied. (Doc. No. 15.) The Court has reviewed the parties’ filings and agrees with
Respondent that Petitioner is not entitled to equitable tolling of the statute of limitations and
that his petition is therefore untimely.
I. BACKGROUND AND PROCEDURAL HISTORY
Petitioner was convicted by a Davidson County jury of felony murder and aggravated child
abuse on April 12, 2007. (Doc. No. 10-1 at 131, 136.) The trial court sentenced him to life
and 22 years in prison, respectively, and ordered the sentences to run consecutively. (Id)
The trial court denied Petitioner’s motion for new trial on July 20, 2007.
On November 30, 2009, the Tennessee Court of Criminal Appeals vacated Petitioner’s
conviction for aggravated child abuse but affirmed the felony murder conviction and modified
his sentence to life in prison. (Doc. No. 10-10.) In an opinion entered January 25, 2011, the
Tennessee Supreme Court reversed that judgment in part, affirmed the conviction and life
sentence for felony murder, and reinstated the conviction and sentence for aggravated child
abuse. (Doc. No. 10-20.)
Petitioner did not file any further challenges to his convictions or sentences until he placed
the pending habeas petition in the prison mail system on June 17, 2019. : (Doc. No. 1 at 20.)
On July 9, 2019, the Court ordered Respondent to file an answer or motion in response to
the petition (Doc. No. 4), and on August 30, 2019, Respondent filed the pending motion to
dismiss along with a memorandum in support and the relevant portions of the state-court
record. (Doc. No. 10-12.) Petitioner responded to the motion to dismiss on September 17,
2019, (Doc. No. 13), and Respondent filed a reply on October 3, 2019, at the Court’s
direction. (Doc. Nos. 14-15.)
II. ANALYSIS
The Antiterrorism and Effective Death Penalty Act (AEDPA) imposes a one-year limitations
period for habeas petitions brought by prisoners challenging state-court convictions. 28
U.S.C. § 2244(d). Under this provision, the limitations period runs from the latest of four
enumerated events:
(A) the date on which the judgment became final by the conclusion of direct review or the
expiration of the time for seeking such review;
(B) the date on which the impediment to filing an application created by State action in
violation of the Constitution or laws of the United States is removed, if the applicant was
prevented from filing by such State action;
(C) the date on which the constitutional right asserted was initially recognized by the
Supreme Court, if the right has been newly recognized by the Supreme Court and made
retroactively applicable to cases on collateral review; or
*2 (D) the date on which the factual predicate of the claim or claims presented could have
been discovered through the exercise of due diligence.

https://nextcorrectional.westlaw.com/Document/lebd7aQ0l 7 lei I eab41 Oab I c3b910894/Vi... 12/6/2019

GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner, v. KEVIN GENOVE...

Page 2 of 5

28 U.S.C. § 2244(d)(1). Petitioner does not allege any circumstances triggering subsections
(B)- (D). Accordingly, his limitations period began to run on Monday, April 25, 2011. 90 days
after the Tennessee Supreme Court ruled on his direct appeal, when the time within which
he could have sought review by the United States Supreme Court expired. See Jimenez v.
Quarterman: 555 U.S. 113, 119-120 (2009) (holding that state convictions are final under§
2244(d)(1)(A) when Supreme Court certiorari is exhausted or when the time for filing a
certiorari petition expires); S. Ct. R. 13.3 (providing 90 days from date of entry of the
judgment or order sought to be reviewed).
Although the running of the period is tolled under § 2244(d)(2) while any “properly filed”
collateral review petition is pending in state court, Petitioner never filed such a petition in
state court. His one-year limitations period, therefore, ran without interruption until it expired
on Wednesday, April 25, 2012. His federal habeas petition filed on June 17, 2019, is
therefore time-barred unless he can establish a basis for tolling the limitations period for
more than seven years.
AEDPA’s one-year statute of limitations may be subject to equitable tolling when the failure
to file in a timely fashion “unavoidably arose from circumstances beyond that litigant’s
control.” Keeling v. Warden, Lebanon Corr. Inst., 673 F.3d 452, 461 (6th Cir. 2012); accord
Holland v. Florida, 460 U.S. 631, 645 (2010). To be entitled to equitable tolling, a petitioner
must show: "(1) that he has been pursuing his rights diligently, and (2) that some
extraordinary circumstance stood in his way and prevented timely filing.” Lawrence v.
Florida, 549 U.S. 327, 336 (2007) (citation and internal quotation marks omitted). This is a
fact-intensive inquiry to be evaluated on a case-by-case basis, and Petitioner carries “the
ultimate burden of persuading the court that he or she is entitled to equitable tolling."
Keeling, 673 F.3d at 462.
Petitioner argues that he is entitled to equitable tolling because his former counsel did not
tell him about additional remedies available after his direct appeal and because a language
barrier prevented him from learning about or pursuing those remedies on his own. (Doc. No.
1 at 19; Doc. No. 13.) Specifically, Petitioner asserts that he is a citizen of Mexico and “does
not speak English proficiently enough to communicate with other inmates or staff.” (Doc. No.
13 at 5.) He says that he "gets by” in daily prison life by using single words and hand signals
to communicate. (Id.) He asserts that the prison does not have legal materials in his native
language and that he has not "had access to a translator until January of this year when an
inmate, capable of speaking [Petitioner's] language, arrived at the Turney Center Industrial
Complex.” (Id.)
The alleged fact that Petitioner's counsel did not advise him of his post-conviction or habeas
remedies does not excuse his late filing. The law is clear that a prisoner’s lack of actual
knowledge about available legal remedies or the time limits for pursuing them is not a
sufficient basis for equitable tolling. Allen v. Yukins, 366 F.3d 396. 403 (6th Cir. 2004) (lack
of actual knowledge of § 2244 deadline insufficient to toll); Reed v. United States, 13 F.
App’x 311,313 (6th Cir. 2001) (holding that “ignorance about filing a § 2255 motion did not
toll the limitations period”); Clinton v. Bauman. No. 10-11528, 2011 WL 282384 (E.D. Mich,
Jan. 25, 2011) (ignorance of state post-conviction remedies did not warrant tolling); Williams
v. Warden of UeberCorr. Inst... No. 0:12-1705, 2013 WL 1857268 (D.S.C. May 2, 2013)
(petitioner’s unawareness that he could file a federal habeas petition not grounds for
equitable tolling).
*3 Serious attorney misconduct such as abandonment may constitute extraordinary
circumstances in this analysis, and “a client [cannot] be faulted for failing to act on his behalf
when he lacks reason to believe his attorneys of record, in fact, are not representing him."
Maples v. Thomas, 132 S. Ct. 912, 923-24 (2012). But Petitioner does not allege that he
was never informed that his direct appeal had concluded; nor does he allege that he
believed counsel would continue to act on his behalf after that juncture. Thus, he does not
allege facts constituting attorney abandonment or other egregious misconduct; he simply
alleges that counsel did not advise him about additional remedies he could pursue in the
future. However, ignorance of the available remedies does not warrant equitable tolling even
when it is the result of lack of advice from counsel: "[insufficient legal advice is not enough
to support equitable tolling in the Sixth Circuit.” Steward v. Moore, 555 F. Supp, 2d 858, 872
(N.D. Ohio 2008) (citing Jurado v. Bud. 337 F.3d 638, 644-45 (6th Cir. 2003)).
Nor does Petitioner’s alleged language barrier necessarily warrant equitable tolling. In
Cobas v, Burgess, the Sixth Circuit held that an untimely habeas petitioner’s being raised in
Cuba and "unable to understand, read or write the English language" did not automatically
entitle him to equitable tolling. 306 F.3d 441 (5th Cir. 2002). The court announced the

https://nextcorrectional.westlaw.com/Document/lebd7afiO I 71 e l l eab41 Oab I c3b910894/Vi... 12/6/201 9

4

GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner, v. KEVIN GENOVE... Page 3 of 5

following guideline to be applied to equitable tolling claims by non-English-speaking
petitioners:
We hold that where a petitioner’s alleged lack of proficiency in English has not prevented
the petitioner from accessing the courts, that lack of proficiency is insufficient to justify an
equitable tolling of the statute of limitations. An inability to speak, write and/or understand
English, in and of itself, does not automatically give a petitioner reasonable cause for
failing to know about the legal requirements for filing his claims.
In general, the existence of a translator who can read and write English and who assists a
petitioner during his appellate proceedings implies that a petitioner will not have
reasonable cause for "remaining ignorant of the legal requirement for filing his claim.” In
announcing this rule, we should note that the translator acting on behalf of a non-English
speaking petitioner need have no qualification other than the ability to communicate in
English. Since a petitioner does not have a right to assistance of counsel on a habeas
appeal, and because an inmate’s lack of legal training, his poor education, or even his
illiteracy does not give a court reason to toll the statute of limitations, we are loath to
impose any standards of competency on the English language translator utilized by the
non-English speaking habeas petitioner.
Id. at 444 (interna! citations omitted). Cobas has been construed to mean that "a nonEnglish-speaking petitioner seeking equitable tolling must, at a minimum, demonstrate that
during the running of the AEDPA time limitation, he was unable, despite diligent efforts, to
procure either legal materials in his own language or translation assistance from an inmate,
library personnel or other source.” Mendoza v. Carey, 449F.3d 1065, 1070 (9th Cir. 2006).
Accordingly, an inmate colorably asserts entitlement to equitable tolling when he alleges that
“he is wholly incapable of reading, writing, or speaking English, had no access to Spanish
language legal materials, and attempted on numerous occasions to obtain assistance in
pursuing his claims.” Planes v. Berghuis, No. 07-cv-14000, 2009 WL 2382006, at *5 (E.D.
Mich. July 31, 2009).
Petitioner’s allegations here do not rise to that level. He asserts that he is incapable of
significant communication in English, that he lacked access to legal materials in his own
language, and that he did not have access to another inmate capable of translating for him
until January 2019.z But even so, Petitioner does not allege a single occasion throughout all
those years on which he requested translation services from the prison or from any contacts
outside the prison. Cobas expressly disavows any requirement that the person translating
for a petitioner have any "qualification other than the ability to communicate in English” or
meet any other "standards of competency.” Cobas, 306 F.3d at 444. All Petitioner needed
was to have someone translate or act as go-between with the English-speaking library staff
and explain the library materials to him in order to have the same information to which any
other inmates had access. There is no indication that Petitioner asked for such assistance
even once, as compared to the “numerous occasions” on which the petitioner in Planes
sought assistance.
*4 Even aside from his failure to establish an extraordinary circumstance, Petitioner’s failure
to make any attempt to obtain translation services to research his available remedies clearly
demonstrates his lack of due diligence in this matter. In another case involving a nonEnglish-speaking petitioner, the Sixth Circuit recently explained that to establish diligence
such a petitioner "must show that ‘he was unable, despite diligent efforts, to procure either
legal materials in his own language or translation assistance from an inmate, library
personnel, or other source.’ ’’ Levy v. Osborne, 734 F. App’x 960, 963 (6th Cir.), cert, denied
sub nom. Levy v. Parris, 133 S. Ct. 293, (2018) (quoting Mendoza, 449 F.3d at 1070). The
court compared cases from other circuits in the context of what constitutes “diligent efforts":
A review of cases addressing the diligence requirement from our sister circuits places
Levy's actions into perspective. For example, the Second Circuit has held that petitioners
who “claimed nothing more than the unavailability of personnel within their prisons who
could translate for them during the applicable limitations periods” failed to act with due
diligence. Diaz [v. Kelly), 515 F.3d [149,] 154 [ (2d Cir. 2008) ]. In Diaz, the court found
particularly relevant that there was “no allegation of any efforts to contact anyone outside
the prison who might assist in making them aware, in their language, of legal requirements
for filing a habeas corpus petition, nor what efforts were made to learn of such
requirements within their places of confinement." Id.
At the other end of the spectrum, the Third Circuit has held that a petitioner who
"attempted to pursue his claims repeatedly” did satisfy the diligence requirement. Pabon

https://nextcorrectional.westIavv.com/Document/Iebd7af201 71 el l eab41 Oab I c3b910894/Vi... 12/6/201 9

GENARO EDGAR ESPINOSA DORANTES # 420728, Petitioner, v. KEVIN GENOVE...

Page 4 of 5

[v. Mahanoy], 654 F.3d [385,] 403 [ (3rd Cir. 2011) ]. indeed, that court noted that it “count
[ed] ten or more efforts where [the petitioner] sought assistance, both before and after the
AEDPA deadline.” Id. at 402.
Levy. 734 F. App’x at 963." it went on to affirm this Court’s determination that the petitioner
had not exercised diligence by asking for translation assistance “only one time," which the
Sixth Circuit characterized as “minimal efforts...to pursue his rights.” Id. at 963-64. Petitioner
in this case does not allege any effort whatsoever to obtain translation assistance to pursue
his remedies. Based on his petition and reply, it appears that Petitioner sat passively and did
nothing at all to discover or pursue any legal remedies for the eight years between the
Tennessee Supreme Court's ruling in his case and the arrival of a bilingual inmate at Turney
Center.
Moreover, even upon gaining access to a bilingual translator in January, Petitioner did not
promptly file his habeas petition. Instead, Petitioner says he began contacting the Innocence
Project in New York and the Consular of Mexico at the Embassy of the United Mexican
States in Little Rock, Arkansas. (Doc. No. 13 at 4.)‘5 Approximately five more months
passed before Petitioner submitted his habeas petition. This additional significant
delay—after the alleged impediment to timely filing was cured by the arrival of a translator,
and after Petitioner clearly knew or should have known that his habeas corpus petition was
already many years late—is further confirmation that Petitioner was not diligent in the pursuit
of his rights.
III. CONCLUSION
*5 For the reasons explained above, Petitioner has not established either the extraordinary ■
circumstances or the diligence required to warrant equitable tolling in this case. Accordingly,
Respondent’s motion to dismiss will be granted.
An appropriate Order shall be entered.
ELI RICHARDSON
UNITED STATES DISTRICT JUDGE

All Citations
Slip Copy, 2019 WL 6524888

.Footnotes
1

Under the prison mailbox rule, the petition is deemed to have been filed when
it was delivered to prison authorities for mailing to the federal court. Houston v.
Lack, 487 U.S. 266, 270 (1988) (pro se prisoner’s notice of appeal deemed
“filed” on date notice is deposited in prison mailbox for forwarding to clerk of
court).

2

The Court sets aside its skepticism that Petitioner did not encounter a bilingual
inmate in more than a decade of incarceration and presumes his allegation to
be true for the purpose of ruling on the pending motion.

3

This Sixth Circuit case may explain the inapt reference to Petitioner as “Levy"
in Petitioner’s reply to Respondent’s answer. (Doc. No. 13 at 3). Perhaps that
reference was the result of a (mistakenly) unchanged cut-and-paste from
briefing in the Levy case. In any event, Levy is indeed applicable and
instructive in this case.

4

Petitioner does not actually specify when these contacts occurred. If he was
able to communicate effectively with outside entities before the January 2019
arrival of the bilingual inmate, that fact is even more damaging to his claim of
diligence. In order to construe the pleadings in the light most favorable to
Petitioner, the Court presumes that he required the assistance of the bilingual
inmate to initiate these contacts and that he would have been unable to do so
before January 2019.

End of

€• 2013 Thomson Routers. No claim to original U.S. Government Works.

Document

https://nextcorrectional.westlaw.com/Document/Iebd7af20171 el l eab41 Oab I c3b91 0894/Vi... 12/6/201 9

No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

APPENDIX 3
Opinion, Tennessee Supreme Court (January 25, 2011)

State v. Dorantes | WestlawNext

Page 1 of20

WE STL
State v. Dorantes
Supreme Court of Tennessee, at Nashville.

January 25, 2011 : 331 S.W.3d 370

(Approx. 27 pages)

331 S.W.3d 370
Supreme Court of Tennessee,
at Nashville.

STATE of Tennessee
v.

Genaro DORANTES.
No. M2007-01938-SC-R31-CD.
Oct. 7, 2010 Session Heard at Centerville.
Jan. 25, 2011.
Synopsis
Background: Defendant was convicted in the Criminal Court, Davidson County, Steve R.
Dozier, J., of aggravated child abuse and felony murder by aggravated child abuse.
Defendant appealed. The Court of Criminal Appeals, 2009 WL 4250431, affirmed in part and
reversed in part. The State appealed.

Holdings: The Supreme Court, Gary R. Wade, J., held that:
1 evidence was sufficient to support convictions for aggravated child abuse and felony
murder by aggravated child abuse;
2 the trial court's refusal to provide defendant’s supplemental jury instruction did not
constitute reversible error; and
3 sentence of 22 years for aggravated child abuse was proper.
Affirmed in part and reversed in part.

bi :

West Headnotes (23)
...........................V- ............

i.«!l Change View
j iI. j Criminal Law
Criminal Law

Construction in favor of government, state, or prosecution
Inferences or deductions from evidence

1

When considering a sufficiency of the evidence question on appeal, the State
must be afforded the strongest legitimate view of the evidence and all reasonable
inferences that may be drawn therefrom.
397 Cases that cite this headnote

|~2 | Criminal Law
Criminal Law

Credibility of Witnesses
Conflicting evidence

The credibility of the witnesses, the weight to be given their testimony, and the

i

reconciliation of conflicts in the proof are matters entrusted to the jury as the trier
of fact.
63 Cases that cite this headnote

3

Criminal Law

Construction in favor of government, state, or prosecution

Criminal Law

Reasonable doubt

When the sufficiency of the evidence is challenged, the relevant question is
whether, after reviewing the evidence in the light most favorable to the State, any
rational trier of fact could have found the essential elements of the crime beyond
a reasonable doubt.
959 Cases that cite this headnote

Criminal Law

Innocence

Criminal Law

Burden of showing error

Because a verdict of guilt removes the presumption of innocence and raises a
presumption of guilt, the criminal defendant bears the burden on appeal of
showing that the evidence was legally insufficient to sustain a guilty verdict.

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/1 1/2020

State v. Dorantes | WestlawNext

Page 2 of20

164 Cases that cite this headnote

5 ; Criminal Law

Circumstantial Evidence
1

In the absence of direct evidence, a criminal offense may be established
exclusively by circumstantial evidence.
280 Cases that cite this headnote

6

Criminal Law

Circumstantial evidence

Criminal Law

Inferences from evidence

The jury decides the weight to be given to circumstantial evidence, and the
inferences to be drawn from such evidence, and, moreover, the extent to which
the circumstances are consistent with guilt and inconsistent with innocence, are
questions primarily for the jury.
583 Cases that cite this headnote

7J Criminal Law

Circumstantial evidence

On appeal, the court may not substitute its inferences for those drawn by the trier
of fact in circumstantial evidence cases.
395 Cases that cite this headnote

; 8 ‘ Criminal Law

Circumstantial evidence

The standard of review is the same whether the conviction is based upon direct or
circumstantial evidence.
1800 Cases that cite this headnote

9 • Homicide
infants

Predicate offenses or conduct
Physical abuse and cruelty

Evidence was sufficient to support convictions for aggravated child abuse and

!

felony murder by aggravated child abuse; defendant and the victim’s mother
abducted the victim, who was four years old, defendant, the victim's mother, and
victim lived in defendant’s van, prior to the victim's death his mother asked her
sisters for money to buy medication for the victim, defendant demonstrated no
desire to help the victim and was evasive when asked about the nature of the
victim's condition, when the victim's aunt told defendant to take the victim to a
doctor he expressed a disregard for the victim's welfare and said he never wanted
custody of victim, the last time mother’s sisters saw the victim he was thin, unable

|

to communicate, and suffering from injury, the victim's body was found shortly

l

thereafter in a park, the victim had serious burns on his feet, buttocks, and upper

|

thighs, and the victim's cause of death was blunt trauma injury to the brain and

j

skull. West's T.C.A. §§ 39-11—302(b), 39—11—401(a), 39-15-401(a}; T.C.A. § 39

j

-13—202(a)(2) (2001); § 39-15-402(a, b) (2004).

!

4 Cases that cite this headnote

10- Criminal Law

4M*

Criminal act or omission

A "nature-of-conduct offense” seeks principally to proscribe the nature of the
defendant's conduct, as opposed to the result that the defendant's conduct
achieves.
1 Case that cites this headnote

11 : Criminal Law

Criminal Intent and Malice

The mental state required for a result-of-conduct offense accompanies only its
resulting harm.

12

Infants

W**

Assault, battery, and physical abuse

Aggravated child abuse is classified as a nature-of-conduct offense.
11 Cases that cite this headnote

13: Criminal Law

Principals, Aiders. Abettors, and Accomplices in General

https://nextcorrectional.westlaw.com/Document/I8caee4e6287d] le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 3 of 20

Criminal responsibility, while not a separate crime, is an alternative theory under
which the State may establish guilt based upon the conduct of another.
28 Cases that cite this headnote
I
141 Criminal Law

Presence

Under the theory of criminal responsibility, presence and companionship with the
perpetrator of a felony before and after the commission of the crime are
circumstances from which an individual's participation may be inferred. West’s
T.C.A. § 39—11—401(a).
8 Cases that cite this headnote

15

Criminal Law

Community of unlawful intent

Criminal Law

Aiding, abetting, or other participation in offense

In order to be convicted of the crime under the theory of criminal responsibility,
the evidence must establish that the defendant in some way knowingly and
voluntarily shared in the criminal intent of the crime and promoted its commission.
West’s T.C.A. § 39-11-401 (a}.
35 Cases that cite this headnote

16

Criminal Law

Flight or refusal to flee

Flight and attempts to evade arrest are relevant as circumstances from which,
when considered with other facts and circumstances in evidence, a jury can
properly draw an inference of guilt.
9 Cases that cite this headnote

117 I Criminal Law

Elements and incidents of offense

The trial court's refusal to provide defendant's supplemental jury instruction, which
provided "For you to find the accused guilty of aggravated child abuse the State
must prove that the Defendant affirmatively committed ah abusive action which
resulted in serious bodily injury to the victim. Failure by either defendant to protect
or seek treatment is not proof of abuse as to satisfy the elements of child abuse,”
did not constitute reversible error, in prosecution for aggravated child abuse and
felony murder by aggravated child abuse; the pattern jury instruction in
aggravated child abuse adequately informed the jury of the State's obligation to
prove the knowing infliction of an injury and resulting bodily injury. West's T.C.A.
§§ 39-15—401(a); T.C.A. § 39-15-402(b) (2004).
17 Cases that cite this headnote

: 18 : Criminal Law

Duty of judge in general

A defendant has a constitutional right to a complete and correct charge of the law,
so that each issue of fact raised by the evidence will be submitted to the jury on
proper instructions.
62 Cases that cite this headnote

;
: 19

Criminal Law

Necessity in General

It is the duty of the trial judge without request to give the jury proper instructions
as to the law governing the issues raised by the nature of the proceedings and

:

the evidence introduced during trial.
34 Cases that cite this headnote

20 : Criminal Law
Criminal Law

Construction and Effect of Charge as a Whole
Instructions Already Given

The refusal to grant a special request for an instruction is error only when the
general charge fails to fully and fairly provide the applicable law, considering the
instructions in their entirety and reading them as a whole rather than in isolation.
7 Cases that cite this headnote

21

Infants

Child abuse, neglect, endangerment, or cruelty

https://nextcorrectional.westlaw.com/Document/I8caee4e6287d] Ie088699d... 8/1 1/2020

State v. Dorantes I WestlawNext

Sentencing and Punishment

Page 4 of 20

Nature, degree, or seriousness of other

\

Sentence of 22 years for aggravated child abuse was proper, even though the

{

sentence was enhanced two-years above the midpoint of the range for

■

misconduct

aggravated child abuse; the court relied on defendant's prior criminal history,
which included three prior misdemeanor convictions, to enhance the sentence.
West's T.C.A. §§40-35-112(a)(1), 40-35-114(2, 6, 7, 16), 40-35-210{c); T.C.A.

j

§ 39-15-402(b) (2004).

;

22 j Sentencing and Punishment

Discretion of court

Whether sentences are to be served concurrently or consecutively is primarily
within the discretion of the trial court.

I

8 Cases that cite this headnote

!
23

Sentencing and Punishment

Plea bargain or other agreement

The trial court's imposition of consecutive sentences was proper, in prosecution
for aggravated child abuse and felony murder by aggravated child abuse;
defendant constituted a dangerous offender as his actions in abusing four-yearold victim, his stepson, and causing his death demonstrated extreme callousness
toward the health and welfare of the victim. West's T.C.A. § 40-35-115(b), 40-35
-115(b)(4).
13 Cases that cite this headnote

Attorneys and Law Firms
*372 Robert E. Cooper, Jr., Attorney General and Reporter; Benjamin A. Ball and John H.
Bledsoe, Assistant Attorneys General; Victor S. Johnson, III, District Attorney General; Katrin
N. Miller and Brian Holmgren, Assistant District Attorneys General, for the appellant, State of
Tennessee.
Jeffery Allen Devasher (on appeal), Nashville, Tennessee, and Amy D. Harwell and Ross
Alderman (at trial), Nashville, Tennessee, for the appellee, Genaro Dorantes.
OPINION
GARY R. WADE, J., delivered the opinion of the Court, in which CORNELIA A. CLARK,
C.J., JANICE M. HOLDER, WILLIAM C. KOCH, JR„ and SHARON G. LEE, JJ., joined.

Opinion
GARY R. WADE, J.
The defendant, who was extradited from Mexico to face charges for aggravated child abuse
and felony murder by aggravated child abuse, was convicted for each offense. The trial court
imposed sentences of twenty-two years and life, respectively, to be served consecutively.
The Court of Criminal Appeals reversed the conviction for aggravated child abuse, finding
the evidence to be insufficient, but upheld the felony murder conviction. This Court granted
applications for permission to appeal by both the State and the defendant. Because the
circumstantial evidence *373 was sufficient to support the convictions for both aggravated
child abuse and felony murder, the judgment of the Court of Criminal Appeals is reversed in
part and affirmed in part. More specifically, the conviction for felony murder is affirmed, and
the conviction for aggravated child abuse is reinstated. No other issues warrant the grant of
a new trial on either offense. The sentences imposed by the trial court for each of the two
offenses are affirmed.
Facts and Procedural History
Luis Osvaldo Cisneros (the “victim") was born in Mexico on July 16. 1998, the fourth child of
Jose Luis Cisneros Servantes ("Cisneros”) and his wife, Martha Patlan-Cano ("Patlan”).
Shortly after the victim's birth, the parents separated, and Cisneros moved to Houston,
Texas, leaving his family in Mexico. In 2001, the victim and the three other children joined
Cisneros in Houston. On June 18, 2002, one of the children, Martha Bernece Cisneros
Patlan, observed Patlan and Genaro Edgar Espinosa Dorantes (the “defendant”) abduct the
victim from Cisneros' yard, place him in a black vehicle, and drive away. At the time, the
victim, not yet four years of age, was described as “normal and healthy.” He no longer wore

https://nextcoiTectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes I WestlawNext

Page 5 of 20

diapers. Cisneros reported the abduction to the Houston police and, about two months later,
traveled to Nashville in an unsuccessful effort to find the victim.
Patlan, who had given birth to a son fathered by the defendant on October 20, 2001, in
Nashville, was "supposedly” staying at the apartment of the defendant’s mother, but much of
her time involved travel with the defendant. They had no established residence. In February
of 2003, Patlan visited the apartment of her sister, Antonia Patlan ("Antonia”), * who had
lived in Nashville for some nine years. Appearing concerned about the victim, Patlan asked
Antonia for “money to buy a cream" to treat his injuries, explaining that while she was in the
bathroom, "she heard her child crying out” when he "burned himself with some corn cobs
that she was cooking." Antonia gave Patlan forty dollars to purchase medicine. One week
later, Patlan returned to the apartment and asked Antonia for permission to store some toys,
stating that she was about to take a trip to Florida. When Antonia asked to see the victim,
Patlan led her to a white van parked outside and driven by the defendant. Antonia entered
the van and saw the victim lying on his side in an apparent effort to protect the area around
his buttocks—“in a position like maybe not to hurt himself.” She touched his head and asked,
“what happened to you, my child?” The victim provided an unintelligible response. At that
point, the defendant interrupted, saying "let's go, let's go woman, let's go, woman" to Patlan
before driving away. In consequence, Antonia was unable to determine the nature or extent
of the victim's injuries.
A few days later, on February 20, 2003, Patlan approached another one of her sisters, Maria
Patlan-Cano (“Maria"), at the Nashville restaurant where she worked, claiming that the
victim “was very sick" and in need of medication. Patlan was accompanied by the victim, her
baby by the defendant, and her ten-year-old daughter by Cisneros, who by that time was
somehow in Patlan's physical custody. After tearfully explaining that the victim had been
burned while she had been cooking corn on the cob, Patlan expressed her fear to Maria that
the victim might die. In response, Maria gave Patlan food and two *374 hundred dollars, but
insisted upon seeing the victim. When Maria went outside, however, the defendant, who was
driving the white van, was reluctant to allow her to see the victim, claiming that he was
blocking traffic. After the defendant moved the vehicle out of the street, Maria opened the .
door, observed the victim, and screamed, “why [is] the child like that?” Maria, who had
described the victim as "chubbier” and "very happy” when she had last seen him in Mexico,
noticed that he was very thin and that a foot was bandaged. He was positioned ”[o]n his
knees with his feet behind him” but did not move. When Maria asked the defendant why he
had not provided medicine to the victim or taken him to the doctor, the defendant replied that
“since he wasn’t his father[,] he didn't have any reason to want to make him get better.”
Maria then asked why the defendant had taken the victim away from his father if he did not
intend to provide for his care. According to Maria, the defendant replied that "he didn't want
to bring him(,] but that bitch [Patlan] wanted it to happen.” At that point, Patlan directed Maria
to get out of the van because the defendant was angry. When Maria complied, the
defendant drove away "really fast."
Maria tried to get the license plate number in order to provide it to the police, but, because of
the defendant's sudden departure, was unable to do so. Afterward, she asked her brother-inlaw, Juan Sanchez (“Sanchez”), to contact the police and report her observations about the
victim's health. Sanchez called 911; however, because of the language barrier, there was a
delay in the processing of the information to the proper authorities within the department.
Initially, in addition to an unidentified male child, Patlan was also thought to be a victim. After
the report, patrol officers were notified, but the matter was not immediately assigned as a
high priority.
Detective Sara Bruner of the Youth Services Division of the Metro Police Department had
the responsibility for investigating child abuse and neglect cases and deaths of children
twelve and under. She contacted Sanchez, who provided her with the victim's name and
urged her “to find him.” As a result of their conversation, on February 21, 2003, Detective
Bruner issued a notice for officers to be on the lookout for the van being driven by the
defendant. Her investigation was to include not only the victim, but also the other two minors
in the custody of Patlan and the defendant.
On February 23, 2003, three days after the initial report to the police, Jerry Moore of the
Metropolitan Park Police was approached by a visibly shaken woman who had observed the
body of a child on a grassy surface behind a mound of dirt in West Park in Nashville. The
mound blocked the view of the body from the road and parking lot. Officer Moore found the
body and secured the scene before Metro Police Detective Brad Corcoran of the Homicide
Division arrived to conduct the investigation. No shoes were on the body, which was

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/1 1/2020

State v. Dorantes I WestlawNext

Page 6 of 20

otherwise clothed. Because no grass stains were on the socks or pants and the body was
not covered by the snow that had fallen during the night, Detective Corcoran deduced that
the body had been placed at that location only a short time before its discovery. Later,
Sanchez identified the body as that of the victim. On the following day, arrest warrants were
issued for the defendant and Patlan. Despite substantial media coverage, including the
mention of the crime on the “America’s Most Wanted” television show, which resulted in
several tips, the police were unable to locate either the defendant or Patlan.
*375 Dr. Amy McMaster, the Deputy Chief Medical Examiner for Davidson County, who had
special training in the interpretation of injuries, performed the autopsy the day after the body
was found. She discovered that the victim was wearing a diaper at the time of his death and
had bandages and a piece of cloth wrapped around his feet. The autopsy indicated that the
victim had received “multiple, multiple” injuries to “virtually every surface of [his] body," and
had also suffered serious burns to entire areas of his feet, which were wrapped in elastic
bandages and covered by socks. The nature of the numerous injuries, including horrific
burns of “full and partial thickness,”3 was illustrated by graphic photographs taken during the
autopsy. After examining the contents of the diaper, which concealed the more severe
burns, Dr. McMaster speculated that its primary purpose was to absorb blood that was
probably caused by the scabbing and infection of the extreme burns to the entire area of the
buttocks, rear upper thighs, and genitals.
According to Dr. McMaster, the burns were altogether inconsistent with injuries caused by a
cooking accident and were consistent with “burn [imjmersion,” the result of the victim, likely
in a sitting position with knees raised, having been intentionally forced into a liquid over 150
degrees for at least one second. The pattern of some of the “satellite” or splash burns
suggested that the victim kicked and resisted as his buttocks and feet entered the water. In
Dr. McMaster's opinion, the burns, between days and weeks old, were so serious that the
victim could not have been able to walk or sit without painful consequences. The infection
caused by the burns and loss of skin had damaged the victim's internal organs, which were
failing at the time of his death. Dr. McMaster also found scars on the victim's face and
multiple bruises and puncture wounds on other areas of his body. In her opinion, the
puncture wounds were the result of “some type of pointed instrument.” The injuries to the
skin, dozens in number, were at different stages of healing at the time of the victim’s death.
The examination also revealed that the victim had sustained blunt trauma injuries to the
brain and skull. According to Dr. McMaster, the swelling to the brain indicated that the head
injuries had been recently inflicted. She determined that the skull fracture, which involved
internal and external bleeding, was the most serious of his injuries. In her opinion, the victim
lived no more than two hours after being struck by the blow. Because the victim was
immobile due to the extensive nature of the burns, she concluded that the blunt force had to
have been inflicted by another individual rather than being accidental in nature. Dr.
McMaster expressed the further view that the victim had suffered a blunt trauma to his hand,
which was swollen and discolored. This injury was consistent with the victim attempting to
protect himself and shield his body from attack. She also found an older contusion on the
front portion of his brain, which was likely sustained six to seven weeks earlier.
Dr. McMaster found a therapeutic level of naproxen—possibly Aleve or Antiprox—in the
victim's body. She believed that the "fluid accumulated in different body spaces” indicated
that the victim would have ultimately died from the infection due to the burns; she
speculated, however, *376 that “with immediate treatment, he likely could have survived” the
burns. She also found that he was malnourished, weighing only thirty-four pounds at the
time of his death, which was far less than the average weight for a child his age. "[H]is ribs
were very easily seen beneath the skin,” and only a small amount of brown and gray thick
fluid was found in his stomach. Dr. McMaster classified the cause of death as battered child
syndrome, a term “used to describe a child ... subjected to repeated bouts of severe physical
abuse.”
Carla Aaron, the Regional Administrator for the Department of Children’s Services in
Davidson County, who had training and experience in child abuse cases and a familiarity
with the procedures involved in reporting the suspected abuse or neglect of children to law
enforcement, the Juvenile Court, or the District Attorney's Office, confirmed that her
department had not received any notification of the victim’s circumstances until after his
death. After reviewing the autopsy photographs, she concluded that if any medical provider
had been called on to treat the injuries the victim had sustained, they would have
“absolutely’’ reported the incident to her department for investigation.

https://nextcoiTectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 7 of 20

Approximately four months after the discovery of the body, a Davidson County Grand Jury
returned a two-count indictment for felony murder during the perpetration of aggravated child
abuse. Count One alleged that the defendant and Patlan "did kill [the victim] during the
perpetration of or attempt to perpetrate Aggravated Child Abuse, in violation of Tennessee
Code Annotated § 39-13-202." Count Two alleged that the defendant and Patlan “did
knowingly, other than by accidental means, treat [the victim], a child six (6) years of age or
less in such a manner as to inflict injury, and the act of abuse resulted in serious bodily injury
to the child, in violation of Tennessee Code Annotated § 39-15-402."
On February 13, 2006, almost three years after the victim's death, Sanchez reported to
Detective Bruner that Patlan was in Mexico. On April 5, 2006, Katrin Miller, Assistant District
Attorney General for the 20th Judicial District, submitted applications for the extradition of .
the defendant and Patlan, based specifically upon the charges for felony murder committed
in the perpetration of or the attempt to perpetrate aggravated child abuse and for aggravated
child abuse. The affidavit in support of the request to extradite also included the following
language:

Both [the defendant and Patlan] are criminally responsible as a party to the
offenses of felony murder and aggravated child abuse if the offenses were
committed by the defendants' own conduct, by the conduct of another for
which the defendants are criminally responsible, or by both.

The extradition agreement, executed by the appropriate authorities on May 30, 2006, made
specific reference to the charges in the indictment. The terms authorized and directed the
extradition of the defendant to face charges of "homicide in violation of criminal code 39-13
-202 and ... child abuse described by criminal code 39-15-402.” The Federal Bureau of
Investigation assisted in the extradition process and, in July of 2006, the defendant and
Patlan were returned to Nashville.
Some five months later, on December 7, 2006, the District Attorney General's Office filed a
superceding indictment against the defendant and Patlan that included two additional counts
for felony murder by aggravated child neglect, an offense not specified in the extradition
request or in the extradition agreement. Upon motion by the defense, however, and a
concession by the office of the District Attorney General *377 that the new charges were
prohibited by the terms of the extradition agreement, the trial court entered an order of
dismissal as to those two counts/
The defendant and Patlan were tried jointly on.the charges set out in the original indictment.
The State, through the witnesses previously identified in this opinion, prosecuted the
offenses based entirely upon circumstantial evidence, including expert testimony. There
were no eyewitnesses to any of the allegations of abuse. Moreover, neither the defendant
nor Patlan made incriminating statements to the police which were admitted as evidence.
Further, the defense elected not to offer proof at the trial.

<

During closing argument, the State, precluded from prosecution based upon aggravated
child neglect, argued that the death of the victim was the result of abuse and relied upon the
surrounding circumstances to establish that the defendant and Patlan either caused or were
mutually culpable for his death under the alternative theory of criminal responsibility. In
response, the defense argued that the State had proved little more than the mere presence
of the defendant some three days before the body was found and, further, had offered no
evidence of the requisite shared intent to support the theory of criminal responsibility for the
conduct of another. At the conclusion of the proof and the arguments of counsel, the trial
court instructed the jury as to felony murder, aggravated child abuse, and criminal
responsibility/
*378 Following its deliberations, the jury found Patlan and the defendant guilty of both
aggravated child abuse and first degree felony murder by aggravated child abuse. As to the
defendant, whose appeal is separate from the Patlan case/ the trial court imposed a
mandatory life sentence for first degree murder and a consecutive sentence of twenty-two
years for the aggravated child abuse conviction.
On direct appeal, the Court of Criminal Appeals reversed the defendant's conviction for
aggravated child abuse, finding the evidence to be insufficient and more specifically
observing that the State had failed to offer any proof that the defendant had actually inflicted
the injuries causing the death of the victim. The Court of Criminal Appeals, however,

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes I WestlawNext

Page 8 of20

affirmed the first degree murder convictions, concluding that the crime of aggravated child
abuse, although different from child neglect, included "aggravated child abuse through
neglect4:
Our review of the record shows that the State never argued that [the defendant] inflicted
the victim's fatal injuries and did not offer any proof in support of this theory.... Accordingly,
the conviction for felony murder based on a theory of aggravated child abuse through
infliction of injury and the conviction for aggravated child abuse are not supported by the
proof in this case.

[T]he evidence[, however,] was sufficient to support [the] conviction for felony murder
during the perpetration of aggravated child abuse through neglect. The evidence showed
that [the defendant] knowingly failed to provide the victim with any medical assistance
which resulted in the victim's serious bodily injuries.
State v. Dorantes. No. M2007-01918-CCA-R3-CD, 2009 WL 4250431, at *9-10
(Tenn.Crim.App. Nov. 30, 2009). In summary, our intermediate court ruled unanimously that
the circumstantial evidence was insufficient to support a conviction of aggravated child
abuse. On the other hand, the majority of the panel of the Court of Criminal Appeals, over
the dissent of Presiding Judge Joseph M. Tipton, held that a murder during the commission
of aggravated child abuse included murder during the commission of aggravated child abuse
“through neglect,” relying on State v. Hodges, 7 S.W.3d 609 (Tenn.Crim.App.1998), a case
involving the interpretation of the 1995 version of the felony murder statute, which was
amended prior to the victim’s death.
The State applied for permission to appeal to this Court, arguing that the Court of Criminal
Appeals had erred by holding that the evidence was insufficient to support a conviction for
aggravated child abuse. The defendant also filed an application for permission to appeal,
arguing that when the evidence is insufficient to support a conviction for aggravated child
abuse, as determined by the Court of Criminal Appeals, a conviction for felony murder based
upon aggravated child abuse cannot stand; secondly, the defendant asserted that a 1998
amendment to the felony murder statute, which made a distinction *379 between a felony
murder based upon aggravated child abuse and a felony murder based upon aggravated
child neglect, precluded the extension of the former to the latter; and, thirdly, the defendant
asked this Court to determine the propriety of a conviction for felony murder based upon
aggravated child abuse absent any instructions defining aggravated child abuse by neglect.
This Court granted both of the applications.
Standard of Review
1

j 2~~] ( 314 .; "When considering a sufficiency of the evidence question on

appeal, the State must be afforded the strongest legitimate view of the evidence and all
reasonable inferences that may be drawn therefrom." State v. Vasques, 221 S.W.3d 514,
521 (Tenn.2007). “The credibility of the witnesses, the weight to be given their testimony,
and the reconciliation of conflicts in the proof are matters entrusted to the jury as the trier of
fact.” State v. Campbell, 245 S.W.3d 331, 335 (Tenn.2008) (citing Byrge v. State, 575
S.W.2d 292, 295 (Tenn.Crim.App.1978)). When the sufficiency of the evidence is
challenged, the relevant question is whether, after reviewing the evidence in the light most
favorable to the State, any rational trier of fact could have found the essential elements of
the crime beyond a reasonable doubt. See Tenn. R.App. P. 13(e); Jackson v. Virginia, 443
U.S. 307, 319, 99 S.Ct. 2781, 61 L.Ed.2d 560 (1979). “Because a verdict of guilt removes
the presumption of innocence and raises a presumption of guilt, the criminal defendant
bears the burden on appeal of showing that the evidence was legally insufficient to sustain a
guilty verdict.” State v. Hanson, 279 SW.3d 265, 275 (Tenn.2009).
\ 5 ij 6 |f7

i 8

1 In the absence of direct evidence, a criminal offense may be

established exclusively by circumstantial evidence. Duchac v. State. 505 S.W.2d 237. 241
(Tenn.1973); Marable v. State, 203 Tenn. 440, 313 S.W.2d 451, 456-58 (1958). Ultimately,
however, “[t]he jury decides the weight to be given to circumstantial evidence, and ‘[t]he
inferences to be drawn from such evidence, and[, moreover,] the extent to which the
circumstances are consistent with guilt and inconsistent with innocence, are questions
primarily for the jury.' ” State v. Rice. 184 S.W.3d 546, 662 (Tenn.2006) (quoting Marable.
313 S.W.2d at 457 (citations omitted)). On appeal, the court may not substitute its inferences
for those drawn by the trier of fact in circumstantial evidence cases. State v. Lewter, 313
S.W.3d 745. 748 (Tenn.2010); Liakss v. State, 199 Tenn. 298, 286 S.W.2d 856, 859 (1956).

\

The standard of review “is the same whether the conviction is based upon direct or

https://nextcorrectional.westlaw.com/Document/I8caee4e6287d] le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 9 of 20

circumstantial evidence." Hanson, 279 S.\A/.3d at 275 (quoting State v. Sutton, 166 S.W.3d
686, 689 (Tenn.2005)).
Years ago, Special Justice Erby Lee Jenkins wrote expressively on behalf of this Court,
admonishing the finder of fact in criminal cases to exercise particular caution in the
prosecution of cases based entirely upon circumstantial evidence:

In order to convict on circumstantial evidence alone, the facts and
circumstances must be so closely interwoven and connected that the finger
of guilt is pointed unerringly at the defendant and the defendant alone. A web
of guilt must be woven around the defendant from which he cannot escape
and from which facts and circumstances the jury could draw no other
reasonable inference save the guilt of the defendant beyond a reasonable
doubt. Mere suspicion and straws in the wind are not enough for
circumstances take strange forms. Under our form of government and the
administration of criminal justice, the defendant is clothed with a *380 mantle
of innocence and that presumption of innocence hovers over and protects
him throughout the trial. Until this is overturned by strong proof of his guilt
beyond a reasonable doubt, not an imaginary or captious doubt but an
honest doubt engendered after a consideration of all the evidence so that the
minds of the jurors cannot rest easy as to the certainty of guilt, he is entitled
to an acquittal.

State v. Cravjford, 225 Tenn. 478, 470 S.W.2d 610, 613 (1971). The Crawford standard
purportedly required the State to prove facts and circumstances “so strong and cogent as to
exclude every other reasonable hypothesis save the guilt of the defendant, and that beyond
a reasonable doubt." id. at 612. This language has long been applied in Tennessee to
criminal cases, particularly those cases in which the sufficiency of the circumstantial
evidence is at issue. Recently, however, this Court pointed out the inconsistency between
the terminology employed in Crawford and its progeny and the standard of proof applied by
the United States Supreme Court when the evidence is solely circumstantial. See State v.
James, 315 S.W.3d 440, 455 n. 14 (Tenn.2010) (observing that, while the Crawford
standard has been used repeatedly in this state, the federal courts have held that the
government has no duty to exclude every other hypothesis except that of guilt).
Significantly, the Supreme Court has specifically rejected the notion "that the prosecution [i]s
under an affirmative duty to rule out every hypothesis except that of guilt beyond a
reasonable doubt." Jackson, 443 U.S. at 326, 99 S.Ct. 2781.' In Jackson, the Supreme
Court cited with approval Hoiiandv. United States, 348 U.S. 121, 139-40, 75 S.Ct. 127, 99
L.Ed. 150 (1954), a case holding “that where the jury is properly instructed on the standards
for reasonable doubt," an additional instruction that circumstantial evidence “must be such
as to exclude every reasonable hypothesis other than that of guilt... is confusing and
incorrect.” In Holland, our highest Court made the following observation:
Circumstantial evidence ... is intrinsically no different from testimonial evidence.
Admittedly, circumstantial evidence may in some cases point to a wholly incorrect result.
Yet this is equally true of testimonial evidence. In both instances, a jury is asked to weigh
the chances that the evidence correctly points to guilt against the possibility of inaccuracy
or ambiguous inference. In both, the jury must use its experience with people and events
in weighing the probabilities. If the jury is convinced beyond a reasonable doubt, we can
require no more.
id. at 140, 75 S.Ct. 127; see also 2A Charles Alan Wright & Peter J. Henning, *381
Federal Practice & Procedure: Criminal § 411 n. 1 (2009) (hereinafter “Wright & Henning”)
(observing that the phrase “direct evidence” is now more commonly used than the
traditional phrase “testimonial evidence").
The federal courts of appeal have followed the Supreme Court's directive, consistently
holding that direct and circumstantial evidence should be treated the same when weighing
the sufficiency of such evidence. See, e.g.. United States v. Kelley, 461 F.3d 817, 825 (6th
Cir.2006) (“Circumstantial evidence alone is sufficient to sustain a conviction and such
evidence need not remove every reasonable hypothesis except that of guilt.”); United States
v. Bell, 678 F.2d 547, 549 (5th Cir.1982) ("It is not necessary that the evidence exclude
every reasonable hypothesis of innocence or be wholly inconsistent with every conclusion
except that of guilt, provided a reasonable trier of fact could find that the evidence

https://nextcorrectional.westlaw.com/Document/I8caee4e6287d] le088699d.... 8/11/2020

State v. Dorantes | WestlawNext

Page 10 of20

establishes guilt beyond a reasonable doubt.”); United States v. Nelson, 419 F.2d 1237,
1241 (9th Cir.1969) (‘‘Since circumstantial and testimonial evidence are indistinguishable so
far as the jury's fact-finding function is concerned, all that is to be required of the jury is that it
weigh all of the evidence, direct or circumstantial, against the standard of reasonable
doubt.”). “Thus, though it is said that circumstantial evidence is to be scrutinized with the
utmost care, and nonlawyers are suspicious of it, the courts reject the view that
circumstantial evidence has less probative value than direct evidence.” Wright & Henning, §
411.
We specifically adopt the standard enunciated by the United States Supreme Court as ’
applicable to prosecutions in this state. In practice, the distinction between the federal
standard and the "reasonable hypothesis” language used in our state has rarely made a
difference; therefore, there has been little reason to refine our standard of review by voicing
disapproval of much of the terminology used in Crawford. * This case, however, may qualify
as one of those rare instances where the application of the federal and state standards could
result in a different outcome, particularly in view of the State’s election to extradite the
defendant based upon the two counts founded in aggravated child abuse rather than
aggravated child neglect.
Development of the Law Applicable to Child Abuse and Neglect
Prior to the Criminal Sentencing Reform Act of 1989, the statute governing cases of child
abuse and child neglect provided as follows: “Any person who maliciously, purposely, or
knowingly, other than by accidental means, treats a child under eighteen (18) years of age in
such manner as to inflict injury or neglects such a child so as to adversely affect its health
and welfare is guilty of a misdemeanor....” Tenn.Code Ann. § 39-4-401(a) (1982) (repealed
by Act of May 24, 1989, ch. 591, § 1, 1989 Tenn. Pub. Acts 1169). Our courts treated abuse
and neglect as two separate offenses. See State v. Smith, C.C.A. No. 1153, 1990 WL
134934, at *3 (Tenn.Crim.App. Sept. 20, 1990), no Tenn. R.App. P. 11 app. filed.3
*382 In 1988, our first degree murder statute included death as a result of child abuse,
providing, in part, as follows:

It shall also be murder in the first degree to kill a child less than thirteen (13)
years of age if the child’s death results from one (1) or more incidents of a
protracted pattern or multiple incidents of child abuse committed by the
defendant against such child, or if such death results from the cumulative
effects of such pattern or incidents.

Tenn.Code Ann. § 39-2-202(2) (Supp.1988) (repealed by Act of May 24. 1989, ch. 591, § 1,
1989 Tenn. Pub. Acts 1169).10 In 1992, however, this Court ruled that this statute was
unconstitutional. State v. Hale; 840 S.W.2d 307, 313 (Tenn.1992). '1 In response, the
General Assembly amended the first degree murder statute to provide, in part, as follows:
“First degree murder is: ... (4) A reckless killing of a child less than thirteen (13) years of age.
if the child's death results from aggravated child abuse, as defined by section 39-15-402,
committed by the defendant against the child.” Act of May 6, 1993, ch. 338, § 1, 1993 Tenn.
Pub. Acts 537 (codified at Tenn.Code. Ann. § 39-13~202(a) (Supp.1993)). Effective in 1995,
however, the legislature again amended the first degree murder statute to provide in part as
follows: "First degree murder is: ... (2) A killing of another committed in the perpetration of. or
attempt to perpetrate any first degree murder, arson, rape, robbery, burglary, theft,
kidnapping, aggravated child abuse or aircraft piracy[.]” Act of May 24, 1995, ch. 460, § 1,
1995 Tenn. Pub. Acts 801 (codified at Tenn.Code Ann. § 39-13-202(a) (Supp.1995))
(emphasis added).
In Hodges, the Court of Criminal Appeals interpreted the 1995 statute. In that case, a twoyear-old died of intentional blunt force trauma to the head and torso inflicted by either the
mother or the stepfather—the sole custodians of the victim. Hodges, 7 S.W.3d at 614. Much
like the case before us, the State was unable to prove which of the two administered the
fatal blows, but. as in this case; "there [could] be no mistake that an act of abuse" caused
the victim’s death. Id. at 620. While affirming convictions for felony murder and aggravated
child abuse, the Court of Criminal Appeals interpreted Tennessee Code Annotated section
39-15-202(a) (Supp.1995) and addressed "child abuse as defined in § 39-15-401" when
serious bodily injury results, as described in section 39—15—402(a)(1). The holding in
Hodges stood for the proposition that a prosecution for a killing that occurred during the
commission of "aggravated child abuse” encompassed a death caused by either abuse

https://nextcorrectional.westlaw.com/Docuinent/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 11 of 20

through the infliction of injury or *383 abuse through neglect of a child " 'so as to adversely
affect the child's health and welfare/ resulting in serious bodily injury.” 7 S.W.3d at 622
-23.Obviously, the majority of the Court of Criminal Appeals in the case before us relied
on the Hodges ruling.
Effective July 1, 1998, however, our General Assembly amended the felony murder statute
by adding aggravated child neglect to the list of felonies upon which a felony murder charge
could be based: "First degree murder is: ... (2) A killing of another in the perpetration of or
attempt to perpetrate any first degree murder, arson, rape, robbery, burglary, theft,
kidnapping, aggravated child abuse, aggravated child neglect or aircraft piracy[.]” Act of Apr.
29, 1998, ch. 1040, § 3, 1998 Tenn. Pub. Acts 911 (codified at Tenn.Code Ann. § 39-13
-202(a) (Supp.1998)) (emphasis added). '' This statute was in effect at all times pertinent to
the prosecution *384 of the defendant and Patlan. Importantly:
When a penal statute or penal legislative act of the state is repealed or amended by a
subsequent legislative act, the offense, as defined by the statute or act being repealed or
amended, committed while the statute or act was in full force and effect shall be
prosecuted under the act or statute in effect at the time of the commission of the offense.
Tenn.Code Ann. § 39-11-112 (2010). Thus, even though the law changed between the
commission of the charged offenses and the trial of the defendant, the law applicable at
the time of the events leading to the victim’s death governs.
In his dissent to the Court of Criminal Appeals' opinion in this case, Judge Tipton observed
that the 1998 amendment by the General Assembly was

significant in the context of separating aggravated child abuse from
aggravated child neglect when considering what constitutes a particular
felony murder.... [Ujnder that provision, murder in the perpetration of
aggravated child abuse is a separate offense from murder in the perpetration
of aggravated child neglect, no different than murder during the perpetration
of air piracy, for example.... I believe that under the statute, charging murder
in the perpetration of aggravated child abuse did not charge murder in the
perpetration of aggravated child neglect.

Dorantes, 2009 WL 4250431, at *17 (Tipton, P.J., dissenting). We agree with his
assessment. Plainly, our General Assembly chose to provide two separate and distinct
courses of conduct, aggravated child abuse and aggravated child neglect, upon which a
felony murder may be predicated.
Analysis
1. Sufficiency of the Evidence
Because one may assume the responsibilities of a parent under the doctrine of in loco
parentis, the defendant's failure to seek medical assistance for the victim's injuries may have
supported convictions for aggravated child neglect and felony murder by aggravated child
neglect. See State v. Sherman. 266 S.W.3d 395, 406 (Tenn.2008). As we have observed,
however, the State was precluded from charging the defendant with those particular crimes
by the terms of the extradition agreement and the doctrine of specialty. Indeed, as the
defendant argues, the trial court did not instruct the jury as to aggravated child neglect and,
therefore, a felony murder conviction for "aggravated child abuse by neglect” would not have
been proper. 1‘"' See T.P.I.—Crim. 21.01(a) (for offenses committed prior to July 1, 2005);
see also Dorantes, 2009 WL 4250431, at *17 (Tipton, P.J.. dissenting).
I 9 ; The defendant's argument, however, relies on the premise that the evidence was
insufficient to support convictions based upon the crime of aggravated child abuse. As the
State set forth in its response to the defendant:

The State has never argued and does not now argue that the defendant is
guilty of aggravated child abuse by neglect. Rather, the State's argument is
that the proof shows that the defendant knowingly treated the child in such a
manner as to inflict injury, either as principal or as one criminally responsible
*385 for the conduct of another. The State takes the position that... the
evidence, in this instance, is sufficient to establish that the defendant either

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 12 of 20

committed the offenses or is criminally responsible for Patlan's commission
of the offenses.

Thus, even though we disagree with the majority of the Court of Criminal Appeals that
evidence of aggravated child neglect may support a conviction for the offense of felony
murder in the perpetration of or attempt to perpetrate aggravated child abuse, the critical
question before us is whether the circumstantial evidence, when considered as equal in
stature with direct evidence, is sufficient to have persuaded a rational jury, by the proper
“use [of) its experience with people and events in weighing the probabilities,” of the
defendant's guilt beyond a reasonable doubt of aggravated child abuse and felony murder
by aggravated child abuse. Holland 348 U.S. at 140, 75 S.Ct. 127. Criminal responsibility for
the conduct of another, while not a separate crime, may serve as a basis for
conviction—working "in synergy with the charged offense." Sherman, 266 S.W.3d at 408.
As stated, at the time of the victim's death, the statute for aggravated child abuse and
neglect provided that “[a] person commits the offense of aggravated child abuse or
aggravated child neglect who commits the offense of child abuse or neglect as defined in §
39-15-401 and ... [t]he act of abuse or neglect results in serious bodily injury to the child[.]”
Tenn.Code Ann. § 3S-15-4Q2(a) (Supp.2002). Moreover, “if the abused or neglected child is
six (6) years of age or less, the penalty is a Class A felony.” Tenn.Code Ann. § 39-15—402
(b). ' ■ First degree felony murder may be committed by the killing of another in the
perpetration of or the attempt to perpetrate aggravated child abuse. Tenn.Code Ann. § 39
-13-202(a)(2) (Supp.2002).
M0J [ 1.1 J [ 12 _ The mental state required for the offense of child abuse and neglect is
' “knowingly, other than by accidental means." Tenn.Code Ann. § 39-15-401(a) (Supp.2002).
The term "knowing," as it appears in our statutory scheme, refers to one of four culpable
mental states—mens rea—adopted by the General Assembly for use throughout the state’s
criminal code. See Tenn.Code Ann. § 39-11-302 (1997); Hanson, 279 S.W.3d at 276; State
v. Page, 81 S.W.Sd 781. 786 (Tenn.Crim.App.2002) ("There are four culpable mental states
in Tennessee: intentional, knowing, reckless and criminal negligence.”). “Knowing” is defined
as follows:

“Knowing" refers to a person who acts knowingly with respect to the conduct
or to circumstances surrounding the conduct when the person is aware of the
nature of the conduct or that the circumstances exist. A person acts
knowingly with respect to a result of the person's conduct when the person is
aware that *386 the conduct is reasonably certain to cause the result.

Tenn.Code Ann. § 39-11-302(b). This definition contemplates that the term "knowing” may
be applied to the following: (1) the nature of the defendant's conduct, (2) the circumstances
surrounding the defendant's conduct, and (3) the result of the defendant's conduct. Hanson,
279 S.W.3d at 276. A nature-of-conduct offense "seeks principally to proscribe the nature of
the defendant’s conduct, as opposed to the result that the defendant's conduct achieves.”
Mateyko. 53 S.W.3d at 673. In contrast, the mental state required for a result-of-conduct
offense accompanies only its resulting harm. Hanson, 279 S.W.3d at 276. Aggravated child
abuse is classified as a nature-of-conduct offense. Id. at 276-77 (quoting State v. Ducker,
27 S.W.3d 889, 897 (Tenn.2000)). As a nature-of-conduct offense, the evidence must be
sufficient for a rational jury to have concluded, beyond a reasonable doubt, that the
defendant was aware of the nature of his conduct when he treated the victim in such a
manner as to inflict injury, and that, in so doing, he acted other than by accidental means.
Hanson, 279 S.W.3d at 277.
13

Further, our statute provides that one "is criminally responsible as a party to an

offense if the offense is committed by the person’s own conduct, by the conduct of another
for which the person is criminally responsible, or by both.” Tenn.Code Ann. § 39-11—401(a)
(1997). "Each party to an offense may be charged with commission of the offense.”
Tenn.Code Ann. § 39-11-4Q1(b). Criminal responsibility, while not a separate crime, is an
alternative theory under which the State may establish guilt based upon the conduct of
another. State v. Lemacks, 996 S.W.2d 166, 170 (Tenn.1999). A person may be criminally
responsible for an offense committed by the conduct of another if, “[ajcting with intent to
promote or assist the commission of the offense, or to benefit in the proceeds or results of
the offense, the person solicits, directs, aids, or attempts to aid another person to commit the
offense [.]” Tenn.Code Ann. § 39-11-402(2) (1997).

https://nextcorrectional.westlaw.coin/Document/I8caee4e6287d] le088699d... 8/l 1/2020

State v. Dorantes | WestlawNext

Page 13 of 20

L..1.4 j [.15 J "(Ujnder the theory of criminal responsibility, presence and companionship with
the perpetrator of a felony before and after the commission of the crime are circumstances
from which an individual’s participation may be inferred." State v. Phillips, 76 S.W.3d 1, 9
(Tenn.Crim.App.2001). Further, no specific act or deed need be demonstrated. State v. Ball,
973 S.W.2d 288, 293 (Tenn.Crim.App.1998). In order to be convicted of the crime, the
evidence must establish that the defendant in some way knowingly and voluntarily shared in
the criminal intent of the crime and promoted its commission. State v. Maxey, 898 S.W.2d
756, 757 (Tenn.Crim.App.1994); State v. Foster, 755 S.W,2d 846, 848
(Tenn.Crim.App.1988). The legislative intent behind the criminal responsibility statutes was
clearly to "embrace the common law principles governing aiders and abettors and
accessories before the fact.” State v. Carson, 950 S.W.2d 951, 955 (Tenn.1997).
Viewed in the light most favorable to the State, the proof at trial established that the
defendant participated in the abduction of the victim on June 18, 2002, and that he shared
physical custody with Patlan until the death of the victim, who was then four years of age.
During this time, the defendant had an itinerant existence and typically had control of the
van, which, by all indications, also served as a place of habitation. When Patlan
demonstrated some concern for the victim Just prior to his death by asking her sisters for
money to buy medicine in order to treat his injuries, the defendant demonstrated no desire to
*387 help and was evasive when questions arose about the nature of the victim's condition.
For example, when Antonia asked Patlan what had happened to the victim, the defendant
interrupted the conversation, directing Patlan to leave before she had the opportunity to
explain. Further, Patlan later sought help from her sister Maria, expressing her fear that the
victim might die; Maria, after seeing the condition of the victim, confronted the defendant
directly, asking why the boy had not been taken to a doctor. In response, the defendant
expressed a disregard for the victim's welfare, explaining that he never wanted to take
custody of the victim, and angrily blamed Patlan for undertaking the obligation while referring
to her in derogatory terms. The defendant hurriedly drove away after Maria's inquiries,
avoiding further explanation. Moreover, a diaper and clothing hid the burns to the victim’s
buttocks and rear upper thighs. Wrapped elastic bandages around the feet were covered by
socks. From all of this, a jury could have reasonably inferred that the defendant was not
willing to allow others to either observe the seriousness of the victim's injuries or ascertain
his need for intensive medical treatment.
The victim was normal and healthy at the time of his abduction. When last seen by Antonia
and Maria, he was in a van driven by the defendant, and was thin, unable to communicate,
and obviously suffering from illness and injury. Shortly thereafter, the victim's body, horribly
burned on the feet, the buttocks, and the upper thighs, was found in West Park, obviously
abandoned there. The body had been discarded behind a mound, which obscured its view
from the parking area. The evidence suggests that the victim's clothes had not been
changed from the time he was seen by Maria until his death some three days later. In the
meantime, the defendant and Patlan had fled the jurisdiction.
The autopsy established that the major injuries were second and third degree burns,
sustained as the result of being placed in scalding hot water, and a fractured skull from blunt
force trauma. The pattern of the burns, suffered by the victim within two weeks of his death,
indicated that he had been immersed in scalding water, buttocks and feet first, in a fetal-like
position. Dr. McMaster, who conducted the autopsy, was resolute in her conclusion that the
burns could not have been accidental. While her autopsy established the immediate cause
of death as a blunt trauma injury to the brain and skull, the infections from the burns, in her
opinion, would have inevitably been fatal absent medical treatment. Dr. McMaster also
determined that the blow to the victim's head could not have been accidental. There was a
wound to the right hand of the victim that was consistent with an effort by the victim to
protect himself from attack. There were dozens of other injuries, some recent and some
older, which were inflicted over a period of time and which were in various stages of healing.
Photographs of the body were not only gruesome, but also particularly probative of
aggravated child abuse. According to an administrator with the Department of Children’s
Services, the victim’s injuries were so severe that any medical worker, had treatment been
sought, would have reported the injuries to authorities. The defendant not only fled the state
but hid out after the death of the victim, avoiding arrest for over three years until found and
extradited from Mexico.
The circumstantial evidence presented to the jury, in our view, Jed to the reasonable
inference that the defendant either knowingly, other than by accidental means, committed
aggravated child abuse as the primary actor or, at a minimum, intentionally '388 solicited,
directed, aided, or attempted to aid Patlan in the commission of the offenses. See

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 14 of20

Term.Code Ann. § 3S-11-402(2). As stated, physical participation in the crime is not an
essential element under the criminal responsibility theory; encouragement of the crime is
enough.
\ 16 J Moreover, “flight and attempts to evade arrest are relevant as circumstances from
which, when considered with other facts and circumstances in evidence, a jury can properly
draw an inference of guilt.” State v. Zagorski, 701 S.W.2d 808, 813 (Tenn.1985). After the
body of the victim, last seen alive in a van driven by the defendant, was disposed of in West
Park, the defendant and Patlan fled to Mexico, and neither could be found, even with
prominent mention of the crime on the “America's Most Wanted” television show. This is
especially probative of guilt. Prior to jury deliberations, the trial court properly instructed the
jury as to how to interpret flight from prosecution:
The flight of a person accused of a crime is a circumstance which, when considered with
all the facts of the case, may justify an inference of guilt. Flight is the voluntary withdrawal
of oneself for the purpose of evading arrest or prosecution for the crime charged. Whether
the evidence presented proves beyond a reasonable doubt that the defendant fled is a
question for your determination.
The law makes no precise distinction as to the manner or method of flight; it may be open,
or it may be a hurried or concealed departure, or it may be a concealment within the
jurisdiction. However, it takes both a leaving the scene'of the difficulty and a subsequent
hiding out, evasion, or concealment in the community, or a leaving of the community for
parts unknown, to constitute flight.
If flight is proved, the fact of flight alone does not allow you to find that the defendant is
guilty of the crime alleged. However, since flight by a defendant may be caused by a
consciousness of guilt, you may consider the fact of flight, if flight is so proven, together
with all of the other evidence when you decide the guilt or innocence of the defendant. On
the other hand, an entirely innocent person may take flight and such flight may be
explained by proof offered, or by the facts and circumstances of the case.
Whether there was flight by the defendant, the reasons for it, and the weight to be given to
it, are questions for you to determine.
See T.P.I.-Crim. 42.18 (10th ed.2006); see also State v. Kendricks. 947 S.W.2d 875, 885-86
(Tenn.Crim.App.1996). Any inference of guilt by virtue of the defendant's departure from this
jurisdiction was clearly warranted.
*389 Because'the evidence is not conclusive as to whether the defendant or Patlan inflicted
the injuries that led to the victim's death, the defendant cites State v. Hix, 696 S.W.2d 22
(Tenn.Crim.App.1984), overruled on other grounds by State v. Messamore, 937 S.W.2d 916,
919 n. 3 (Tenn.1996), as authority that one parent cannot be convicted of child abuse on the
basis that he or she is one of two possible custodians responsible for the death. In Hix, a
husband and wife were convicted of abuse and battery and child abuse against their sixweek old child, who had a fractured thigh and broken ribs. 696 S.W.2d at 24. Because the
evidence did not prove beyond a reasonable doubt which parent committed the crimes, the
Court of Criminal Appeals found the evidence insufficient to support the convictions. Id. at 24
-25. As argued by the State, however,'the case before us is readily distinguishable from Hix.
Because the offenses in Hix occurred prior to the 1989 Sentencing Reform Act, resolution of
the appeal in that case did not involve consideration of criminal responsibility for the conduct
of another, as set forth in Tennessee Code Annotated sections 39-11-401 and -402. Cf.
Lemacks. 996 S.W.2d at 171 (sustaining a conviction under a theory of criminal
responsibility when the jury was instructed that the defendant could be found guilty of driving
under the influence if he was found to either have been the driver or have allowed another
who was under the influence to operate the vehicle).
Further, our Court of Criminal Appeals has more recently considered similar circumstances
under the version of the statute applicable to the defendant. In State v. Nunn. No. E2007
—02333-CCA-R3-CD, 2009 WL 4790211 (Tenn.Crim.App. Dec. 14, 2009), perm. app.
denied (Tenn.2010), the defendants, parents of a nine-month-old child, were the sole
custodians during a period in which the child suffered severe internal injuries and fractures
to his skull, arm, and leg. The parents were both convicted of aggravated child abuse under
a theory of criminal responsibility, absent any direct evidence that the two inflicted the
injuries. Id. at *21-22. Our intermediate court properly held that the jury was under no
obligation "to determine unanimously whether a defendant is either directly liable or

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 15 of 20

criminally responsible for the harm inflicted/1 Id. at *25. As in Nunn, and unlike in Hix. the jury
in this case was instructed on a theory of criminal responsibility.
In summary, the evidence, even though entirely circumstantial, is sufficient to support the
jury's finding of guilt beyond a *390 reasonable doubt of each of the offenses charged. The
autopsy report, photographs of the injuries, and the defendant's flight from this jurisdiction
and hiding out for three years were especially probative. The jury had a rational basis for the
verdicts of guilt as to each count.
2. Request for Special Jury Instruction
! 17 J During the course of the trial, the defendant proposed a special request for the trial
court to supplement the jury instructions as follows:

For you to find the accused guilty of aggravated child abuse the State must
prove that the Defendant affirmatively committed an abusive action which
resulted in serious bodily injury to the victim. Failure by either defendant to
protect or seek treatment is not proof of abuse as to satisfy the elements of
child abuse.

The trial court denied the request, holding that the statutory language on child abuse and
neglect and aggravated child abuse sufficiently explained that the State was required to
prove, beyond a reasonable doubt, that the defendant “knowingly, other than by accidental
means, treated] a child under [six] years of age in such a manner as to inflict injury,” and
that such action resulted in serious bodily injury to the child. See Tenn.Code Ann. §§ 39-15
-401 & -402. The defendant contends that he is entitled to a new trial because the
instruction would have clarified the obligation of the State to prove aggravated child abuse
through infliction of injury rather than aggravated child abuse through neglect. In response,
the State submits that the instruction sought by the defendant regarding "[failure ... to
protect or seek treatment” was far too broad and, for example, could have been interpreted
to preclude a conviction for a defendant who actively prevented medical treatment for a
severely injured victim. The State further argues that the jury charge was adequate to
protect the defendant from a conviction based upon “mere neglect.”
I 18 j [ 19 i [ 20

It is well-settled that a defendant has a constitutional right to a complete

and correct charge of the law, so that each issue of fact raised by the evidence will be
submitted to the jury on proper instructions. State v. Faulkner. 154 S.W.3d 48, 58
{Tenn.2005); State v. Farner, 66 S.W.3d 188, 204 (Tenn.2001); State v. Garrison, 40
S.W.3d 426, 432 (Tenn.2000). “It is the duty of the trial judge without request to give the jury
proper instructions as to the law governing the issues raised by the nature of the
proceedings and the evidence introduced during trial....” State v. Teel, 793 S.W.2d 236, 249
(Tenn. 1990). The purpose "of a special instruction is to supply an omission or correct a
mistake made in the general charge, to present a material question not treated in the
general charge, or to limit, extend, eliminate, or more accurately define a proposition already
submitted to the jury." Sfate v. Cozarl, 54 S.W.3d 242, 245 (Tenn.2001). The refusal to grant
a special request for an instruction is error only when the general charge fails to fully and
fairly provide the applicable law, considering the instructions in their entirety and reading
them as a whole rather than in isolation. Hanson. 279 S.W.3d at 280.
The trial court, which concluded that the pattern instruction on aggravated child abuse
adequately informed the jury of the State's obligation to prove the knowing infliction of an
injury and resulting bodily injury, provided the following instruction on aggravated child
abuse:
For you to find the defendant guilty ... the state must have proven beyond a *391
reasonable doubt the existence of the following essential elements:
(1) that the defendant did knowingly, other than by accidental means, treat a child in such
a manner as to inflict injury;
(2) that the act of abuse resulted in serious bodily injury to the child: and
(3) that the child was six (6) years of age or less.
In our view, the trial court's charge was adequate.' ‘ “Knowingly" and “other than by
accidental means” inflicting injury on a child less than six qualifies as terminology which can

https://nextcorrectional.westlaw.com/Docuinent/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 16 of20

be readily understood. The trial court's refusal to supplement the pattern instruction did not
constitute reversible error.
3. Sentencing
| 21 i The trial court imposed a mandatory sentence of life imprisonment for felony murder
and a sentence of twenty-two years for the aggravated child abuse conviction. The
sentences were ordered to be served consecutively. As we have observed, aggravated child
abuse is a Class A felony when the child is less than 6 years old. Tenn.Code Ann. § 39-15
-402(b). As a Range I offender, the defendant is subject to a sentence of between 15 and
25 years. Tenn.Code Ann. § 40-35-112(a)(1) (1997). The presumptive sentence for a Class
A felony, at the time of offense, is the midpoint of the range. See Tenn.Code Ann. § 40-35
-210(c) (1997 & Supp.2002). The trial court found four enhancement factors: (1) the
defendant had prior misdemeanor convictions; (2) the defendant treated or allowed the
victim to be treated with exceptional cruelty; (3) the personal injuries inflicted on the victim
were particularly great; and (4) the defendant abused a position of private trust. See
Tenn.Code Ann. § 40-35-114(2), (6), (7), (16) (Supp.2002). The trial court found no
mitigating factors.
In State v. Gomez, 239 S.W.3d 733, 740 (Tenn.2007), this Court held that an imposition of a
greater sentence based upon factual determinations made by the trial judge rather than a
jury violates the Sixth Amendment. See Cunningham v. California, 549 U.S. 270, 290.127
S.Ct. 856, 166 L.Ed.2d 856 (2007); Blakely v. Washington. 542 U.S. 296, 305, 124 S.Ct.
2531, 159 L.Ed.2d 403 (2004). Based upon our holding in Gomez, three of the enhancement
factors cannot apply. Prior criminal history, however, is an enhancement factor that does not
offend the Sixth Amendment absent submission of the issue to a jury. Gomez, 239 S.W.3d
at 740; Apprendi v. New Jersey, 530 U.S. 466, 490, 120 S.Ct. 2348, 147 l_.Ed.2d 435
(2000). Because the defendant had three prior misdemeanor convictions, two for theft and
one for assault, it is our view that a two-year enhancement above the midpoint of the range
for the aggravated child abuse conviction is warranted. The length of the sentence for the
aggravated child abuse conviction is, therefore, affirmed.
\ 22 j j 23 sj Further, the trial court ordered the sentences to be served consecutively on the
basis that the defendant qualified as a dangerous offender. See Tenn.Code Ann. § 40-35
-115(b)(4) (1997) (describing a "dangerous offender” as one "whose behavior indicates little
or no regard for human life, and no hesitation about committing a crime in which the risk to
human life is high”). The trial court *392 specifically found that the aggregate term of
confinement was reasonably related to the severity of the offenses and was necessary to
protect society from the defendant's criminal behavior. See State v. Wilkerson, 905 S.W.2d
933, 939 (Tenn.1995). While the Criminal Sentencing Reform Act of 1989 requires a
principled justification for every sentence, including, of course, consecutive sentences,
sentencing is a human process that is not subject to a set of mechanical rules. Id. at 938.
Whether sentences are to be served concurrently or consecutively is primarily within the
discretion of the trial court. See State v. Hastings, 25 S.W.3d 178, 181
(Tenn.Crim.App.1999); see also Tenn.Code Ann. § 40—35—115(b) (providing that "(t]he [trial]
court may order sentences to run consecutively if the court finds by a preponderance of the
evidence that” one or more of the statutory criteria exist) (emphasis added). Because the
defendant, at a minimum, demonstrated extreme callousness toward the health and welfare
of the victim, and the results were fatal, the trial court, in our view, had a reasonable basis
for imposing consecutive sentences.
Conclusion
The judgment of the Court of Criminal Appeals is reversed in part and affirmed in pari, and
the sentences imposed by the trial court for each of the two offenses are reinstated. It
appearing that the defendant is indigent, costs of this appeal shall be taxed to the State of
Tennessee.
All Citations
331 S.W.3d 370

Footnotes
1

Oral argument was heard in this case on October 7, 2010, in Centerville,
Hickman County, Tennessee, as part of this Court’s S.C.A.L.E.S. (Supreme
Court Advancing Legal Education for Students) project.

2

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/202.0

State v. Dorantes I WestlawNext

Page 17 of20

Antonia Patlan, Maria Patlan-Cano; Jose Luis Cisneros Servantes, and
Martha Bernece Cisneros Patlan testified at trial with the assistance of an
interpreter.
3

Partial thickness burns, according to Dr. McMaster, are second degree burns,
which do not destroy the cells capable of regenerating the skin. Full thickness,
or third degree burns, involve the destruction of nerve endings, and the skin
will not regenerate.

4

In United States v. Rauscher. 119 U.S. 407, 429-30, 7 S.Ct. 234, 30 L.Ed. 425
(1886), the United States Supreme Court held that the courts of the United
States may not try a defendant who was extradited from another country for a
crime not listed in the extradition agreement. This doctrine of specialty
prohibits the prosecution for crimes which were not the basis for extradition.
United States v. Levy: 947 F.2d 1032, 1034 (2d Cir.1991). Further, Article 17
of the extradition treaty between the United States and Mexico specifically
provides that an individual extradited under the treaty "shall not be detained,
tried, or punished ... for an offense other than that for which extradition has
been granted” absent an exception, none of which apply to these
circumstances. Extradition Treaty, U.S.-Mex., art. 17, U 1, May 4, 1978, 31
U.S.T. 5059.

5

After instructing the jury on the elements necessary to support a conviction for
felony murder and aggravated child abuse, the trial court charged the jury
using language in substantial compliance with the statutes governing criminal
responsibility, Tenn.Code Ann. §§ 39-11-401 & -402 (1997), and facilitation
of a felony, Tenn.Code Ann. § 39-11-403 (1997):
The defendant is criminally responsible as a party to an offense if the
offense was committed by the defendant's own conduct, by the conduct of
another for which the person is criminally responsible, or by both. Each
party to the offense may be charged with the commission of the offense.
The defendant is criminally responsible for an offense committed by the
conduct of another if, acting with the intent to promote or assist the
commission of the offense, or to benefit in the proceeds or results of the
offense, the defendant solicits, directs, aids, or attempts to aid another
person to commit the offense. Mere presence is not sufficient to find a
defendant guilty for being criminally responsible for an offense committed
by the conduct of another. However, presence of the defendant is not
required.
A person who commits the offense of facilitation of a felony is guilty of a
crime. For you to find the defendant guilty of this offense, the state must
have proven beyond a reasonable doubt the existence of the following
essential elements:
(1) that the defendant knew that another person intended to commit the
specific offense, but did not have the intent to promote or assist the
commission of the offense or to benefit in the proceeds or results of the
offense; and
(2) that the defendant furnished substantial assistance to that person in
the commission of the felony; and
([3]) that the defendant furnished such assistance knowingly.
The jury was also instructed on lesser included offenses, including second
degree murder, voluntary manslaughter, reckless homicide, and criminally
negligent homicide under Count 1. As to Count 2, the trial court also
charged aggravated assault, reckless aggravated assault, child abuse,
assault, and facilitation.

6

The appeal of Martha Patlan-Cano, State v. Patlan, M2008-02515-CCA-R3
-CD, was heard by the Court of Criminal Appeals on June 22, 2010.

7

While recognizing that convictions for criminal offenses might be based
entirely upon circumstantial evidence, our Court of Criminal Appeals recited

https://nextcorrectional.westlaw.coin/Document/I8caee4e6287dl le088699d... 8/l 1/2020

State v. Dorantes | WestlawNext

Page 18 of 20

what has become standard language in practically all of our reported cases
r

that address the sufficiency of circumstantial evidence:
In such a case, the evidence "must be so strong and cogent as to exclude
every other reasonable hypothesis save the guilt of the defendant, and
that beyond a reasonable doubt.” In addition the evidence “must be not
only consistent with the guilt of the accused but it must also be
inconsistent with his innocence and must exclude every other reasonable
theory or hypothesis except that of guilt.” In other words, “[a] web of guilt
must be woven around the defendant from which he cannot escape and
from which facts and circumstances the jury could draw no other
reasonable inference save the guilt of the defendant beyond a reasonable
doubt.”
Dorantes, 2009 WL 4250431, at *7 (citations omitted).
8

The trial court instructed the jury on circumstantial evidence using some of the
language from Crawford: "the facts must exclude every other reasonable
theory or hypothesis except that of guilt; and the facts must establish such a
certainty of guilt of the defendant as to convince beyond a reasonable doubt
that the defendant is the one who committed the offense.”

9

The 1989 Act included the earlier version of the child abuse and neglect
statute but also created a statute defining aggravated child abuse, a felony, for
those committing child abuse resulting in severe bodily injury or with a deadly
weapon. See 1989 Tenn. Pub. Acts at 1235-36 (codified at Tenn.Code Ann.
§§ 39—15—401 & —402 (1991)).

10

After the 1989 Act and a subsequent amendment in 1991, see Act of May 8,
1991, ch. 377, § 2, 1991 Tenn. Pub. Acts 610, the relevant portion of the first
degree murder statute read as follows:
First degree murder is:... (4) A killing of a child less than thirteen (13)
years of age, if the child’s death results from a protracted pattern or
multiple incidents of bodily injury committed by the defendant against such
child and the death is caused either by the last injury or the cumulative
effect of such injuries.
Tenn.Code Ann. § 39-13-202(a) (1991).

11

In State v. Maupin, 859 S.W.2d 313 (Tenn.1993), after the Court of Criminal
Appeals had reversed a conviction for child abuse murder under the 1988
statute because the proof showed neglect rather than abuse, this Court
specifically acknowledged “that the evidence [wa]s insufficient to sustain a
conviction of murder in the first degree” even if the statute had been upheld as
constitutional. Id. at 315.

12

In State v. Mateyko, 53 S.W.3d 666 (Tenn.2001), which involved charges filed
in 1997 and an interpretation of the legislation in existence at that time, this
Court cited Hodges with approval and held that
child abuse and neglect [under the statute] is a single offense that may be
committed through one of two courses of conduct: child abuse through
injury and child abuse through neglect. Although the criminal code fin
1997J contains no specific offense labeled “child neglect,” we will
generally refer to the child abuse through neglect prong of [the statute] as
“child neglect” for ease of reference.
Id. at 668-69 n. 1 (citing Hodges. 7 S.W.3d at 622) (emphasis added).

13

House Bill 3154 was “brought to [the legislature] by the District Attorneys
General Conference [to] separatef ] the offense of aggravated child abuse and
neglect into two separate offenses [and] make [ ] it clear that aggravated child
neglect is punishable by the same penalty as aggravated child abuse.”
Statement of Rep. John Hood, House Judiciary Committee, Feb. 25, 1998
(emphasis added). The original version stated in section 1 (a)(2) that “[a]
deadly weapon is used to accomplish the act of abuse or neglect,” but
Representative Hood successfully introduced an amendment to delete the
phrase “or neglect,” explaining that a deadly weapon would only be used in the

https://nextcorrectional.westlaw.com/Document/I8caee4e6287d] le088699d... 8/1 1/2020

State v. Dorantes | WestlawNext

Page 19 of 20

context of abuse, not neglect. Id. When the proposal reached the floor of the
House, Representative Hood stated that the legislation ensured “that
aggravated child neglect is punishable by the same penalty as aggravated
child abuse; also that child neglect is punishable by the same penalty as child
abuse and that aggravated child neglect is an offense that triggers the felony
murder rule." Statement of Rep. Hood, House Session, Mar. 9, 1998. The bill,
as amended, passed 97-0.
Senator Joe Haynes introduced Senate Bill 2932 in the Senate Judiciary
Committee on March 31, 1998, and the same amendment adopted by the
House was approved by the committee. There was no discussion of the bill
in committee, other than to note that it passed the House 97-0. When the
bill reached the floor of the Senate, Senator Haynes withdrew the
amendment because it was in the House bill, which already had been
substituted for the Senate bill. He described the bill just as Representative
Hood had on the House floor a few weeks earlier. Statement of Sen.
Haynes, Senate Session, Apr. 6, 1998. The bill passed the Senate 30-0.
On April 16, 1998, the sponsors successfully recalled the bill from the
Governor's desk in order to fix a typographical error in the reference to the
Tennessee Code Annotated. On April 23, 1998, the Senate corrected the bill
and returned it to the House by a vote of 32-0. Five days later, the amended
version of HB 3154 reached the House floor. Representative Hood stated
that the bill “made more specific the language separating the two offenses of
aggravated child abuse and aggravated child neglect.” Statement of Rep.
Hood, House Session, Apr. 28, 1998. The amended bill passed the House
92-0.
The statute has been further amended since 1998. The current version
continues to list aggravated child abuse and aggravated child neglect
separately: “First degree murder is: ... (2) A killing of another committed in
the perpetration of or attempt to perpetrate any first degree murder, act of
terrorism, arson, rape, robbery, burglary, theft, kidnapping, aggravated child
abuse, aggravated child neglect, rape of a child, aggravated rape of a child
or aircraft piracy[.]n Tenn.Code Ann. § 39-13-202(a) (2010).
14

In the instructions to the jury, the trial court defined “aggravated child abuse"
as requiring that the defendant: (1) "knowingly, other than by accidental
means, treated] a child in such a manner as to inflict injury; and (2) that the
act of abuse resulted in serious bodily injury to the child; and (3) that the child
was six (6) years of age or less.”

15

We have held that the offense of child abuse and neglect described in
Tennessee Code Annotated section 39-15-401 is a single offense that may
be committed through one of two courses of conduct. Maieyko.. 53 S.W.3d at
668-69, n. 1. As we have observed, however, the 1998 amendment replaced
the language of Tennessee Code Annotated section 39-15-402 in its entirety,
with the purpose of establishing aggravated child abuse and aggravated child
neglect as separate offenses. Compare Tenn.Code Ann. § 39-15-402(a)
(1997) (referring to “the offense of aggravated child abuse and neglect”) with
Tenn.Code Ann. § 39-15-402(a) (Supp.2002) (referring to "the offense of
aggravated child abuse or aggravated child neglect”). The revisions are not in
tension with the Mateyko ruling because they address different statutes, and
because of the requirement that the State provide, at the defendant’s request,
details of the charges necessary to the preparation of the defense. See State
v. Byrd,. 820 S.W.2d 739, 741 (Tenn.1991).

16-

The Court of Criminal Appeals has quoted American Jurisprudence 2d on the
issue of flight:
The fact that a defendant after the commission of a crime concealed
himself or fled from the vicinity where the crime was committed, with
knowledge that he was likely to be arrested for the crime or charged with
its commission, may be shown as a circumstance tending to indicate guilt.
Hall v. State, 584 S.W.2d 819, 821 (Tenn.Crim.App.1S79) (quoting 29
Am.Jur.(2d] Evidence § 280).

https://nextcorrectional.westlaw.com/Document/I8caee4e6287dl le088699d... 8/11/2020

State v. Dorantes | WestlawNext

Page 20 of 20

Earlier, in Rogers v. State, 2 Tenn.Crim.App. 491,455 S.W.2d 182 (1970),
our intermediate court adopted the view set out in Corpus Juris Secundum
on the subject:
The law makes no nice or refined distinction as to the manner or method
of a flight; it may be open, or it may be a hurried or concealed departure,
or it may be a concealment within the jurisdiction. However, it takes both a
leaving the scene of the difficulty and a subsequent hiding out, evasion, or
concealment in the community, or a leaving of the community for parts
unknown, to constitute flight.
Id. at 187 (quoting 22A C.J.S. Ciiminal Law § 625); see also State v.
Whittenmeir, 725 S.W.2b 686, 688 (Tenn.Crim.App.1986).
“A minority of the states have either done away with or limited the instances
in which the jury is charged on the law of flight.” State v. Kyger, 787 S.W.2d
13, 28 (Tenn.Crim.App.1989). For example, in State v. Humbolt, 1
Kan.App.2d 137, 562 P.2d 123, 127 (1977), the Court of Appeals of Kansas
held that “(t]he weight to be given any evidence [of flight] is a matter for
counsel to argue and for the jury to determine." See also People v. Larson,
194 Colo. 338, 572 P.2d 815, 817-18 (1977) (holding that an instruction on
flight “should be sparingly given” "because it gives undue influence to one
item of evidence”); State v. Wrenn, 99 Idaho 506, 584 P.2d 1231, 1233
(1978) (“[B]ecause of the debatable significance of flight as evidence of guilt,
an instruction on flight should not ordinarily be given. It should be left to
argument to the jury by the parties, unless the trial judge because of the
peculiar facts in the particular case feels it is essential to the jury's
deliberations.”); State v. McCormick, 280 Or. 417, 571 P.2d 499, 501 (1977)
(“[T]he debatable significance of flight can in most cases be left to argument
by the parties....”). Tennessee subscribes to the majority view among the
states, which is to charge the jury regarding flight where appropriate. Kyger,
787 S.W.2d at 29.
17

In Nunn, our Court of Criminal Appeals determined that "[a] rational jury could
find beyond a reasonable doubt that... one or both [parents] inflicted the
injuries,” and, if not, that each parent "was criminally responsible because he
or she failed to make a reasonable effort to prevent the beating.” 2009 WL
4790211, at *24.

End of

© 2020 Thomson Routers. No claim lo original U.S. Government Works.

Document

WestlawNext. © 2020 Thomson Reuters

Thomson assnraw
Thomson Reuters ismoi'providing legal advice

https://nextcorrectional.westlaw.com/Document/18caee4e6287dl le088699d... 8/l 1/2020

i

;

*
>•

No.

IN THE
SUPREME COURT OF THE UNITED STATES

GENARO EDGAR ESPINOSA DORANTES - PETITIONER
Vs.
KEVIN MYERS. Acting Warden - RESPONDENT

APPENDIX 4
Opinion, Tennessee Court of Criminal Appeals (November 30, 2009)

;
\

i

\

i

;
(

•V

State v. Dorantes | WestlawNext

Page 1 of 13

WESTLAW
State v. Dorantes
Court of Criminal Appeals of Tennessee, at Nashville.

November 30, 2009

Slip Copy

2009 WL 4250431

(Approx. 14 pages)

Judgment Affirmed in Part, Reversed in Part by State v. Dorantes, \ Tenn., ; January 25, 2011

2009 WL 4250431
Only the Wcstlaw citation is currently available.
SEE RULE 19 OF THE RULES OF THE COURT OF CRIMINAL APPEALS RELATING TO
PUBLICATION OF OPINIONS AND CITATION OF UNPUBLISHED OPINIONS.
Court of Criminal Appeals of Tennessee,
at Nashville.

STATE of Tennessee
v.
Genaro Edgar Espinosa DORANTES.
No. M2007-01938-CCA-R3-CD.
Assigned on Briefs Aug. 20, 2008.
Nov. 30, 2009.
Application for Permission to Appeal
Granted by Supreme Court
May 13, 2010.
Direct Appeal from the Criminal Court for Davidson County, No.2006-D-3184; Steve R.
Dozier, Judge.
Attorneys and Law Firms
Jeffrey A. DeVasher, Assistant Public Defender (on appeal); Ross E. Alderman, District
Public Defender (at trial) and Amy D. Harwell, Assistant Public Defender (at trial), Nashville,
Tennessee, for the Defendant-Appellant, Genaro Edgar Espinosa Dorantes.
Robert E. Cooper, Jr., Attorney General and Reporter; Preston Shipp, Assistant Attorney
General; Victor S. Johnson, III, District Attorney General; Katrin N. Miller and Brian K.
Holmgren, Assistant District Attorneys General, for the Appellee, State of Tennessee.
CAMILLE R. McMULLEN, J., delivered the opinion of the court, in which JAMES
CURWOOD WITT, JR., J., joined. JOSEPH M. TIPTON, P.J., filed a concurring and
dissenting opinion.
OPINION
CAMILLE R. McMULLEN, J.
*1 Defendant-Appellant, Genaro Edgar Espinosa Dorantes ("Dorantes") was convicted by a
Davidson County jury of first degree felony murder during the perpetration of aggravated
child abuse and aggravated child abuse by infliction of injury. For the felony murder
conviction, Dorantes received a mandatory sentence of life imprisonment. The trial court
later sentenced him as Range I. standard offender to a consecutive term of twenty-two
years' incarceration for the aggravated child abuse conviction. Dorantes argues: (1) the
record is insufficient to support both his conviction for first degree felony murder based on
aggravated child abuse and his conviction for aggravated child abuse; (2) the trial court
erred in admitting certain photographs of the victim’s body; (3) the trial court erred when it
refused to provide a special jury instruction that ensured that the verdicts were based on
acts of abuse rather than a continuing course of neglect; (4) the trial court erred in denying
his motion to require the State to make an election of offenses; and (5) his sentence of
twenty-two years for the aggravated child abuse conviction was excessive. After a careful
review of the record and the issues presented, we conclude the evidence is insufficient to
support the aggravated child abuse conviction; therefore, we reverse and vacate the
conviction for the aggravated child abuse and modify Dorantes’ sentence to life
imprisonment. The judgment of the trial court for the felony murder conviction is affirmed.
On June 27, 2003, Dorantes and Martha L. Patlan-Cano ("Patlan”) were indicted as
codefendants by the Davidson County Grand Jury and charged with first degree felony

https://nextcoiTectional.westlaw.coin/Document/Ic91010cbde651 Idea82ab9... 8/11/2020

/

1

V

1

I
l

l

1

State v. Dorantes | WestlawNext

Page 2 of 13

murder during the perpetration of aggravated child abuse (count one) and aggravated child
abuse (count two). After extradition from Mexico, Dorantes and Patlan were also charged in
a superseding indictment with first degree felony murder during the perpetration of
aggravated child neglect (count three) and aggravated child neglect (count four). Dorantes
moved to dismiss the additional counts in the superseding indictment because they were not
part of the terms in the extradition agreement between the United States and Mexico
pursuant to their extradition treaty. Under the Doctrine of Specialty, Dorantes maintained the
State could not detain, try, or punish him for any offenses not listed in the agreement. See,
e.g, United State v. AIvarez-Machain, 504 U.S. 655, 659-60, 112 S.Ct. 2188, 119 L.Ed.2d
441 (1992). The State did not oppose the motion, and the trial court dismissed counts three
and four. Dorantes was convicted as charged by the jury and received a mandatory life
sentence for the felony murder during the perpetration of aggravated child abuse conviction
and a consecutive twenty-two-year sentence for the aggravated child abuse conviction.
Trial. On the morning of February 23, 2003, the body of a four-year-old child was found in a
park in Nashville, Tennessee. After being alerted by a jogger in the park, Officer Jerry Moore
with the Metropolitan Park Police located the child's body behind an earthen mound between
8:30 a.m. and 8:45 a.m. Officer Moore drove to the area, secured the scene, and called for a
detective on his radio. The body was later identified as Luis Cisneros, the victim in this case.
*2 Jose Luis Cisneros Servantes ("Jose"),1 Patlan’s husband, testified that he and the codefendant, along with their other three children, lived in Mexico when the victim was born.
After Jose and the co-defendant separated, Jose left the children with his wife and moved to
Houston, Texas. In 2001, Jose took the children from Mexico and moved them to Texas with
him. In June 2002, while the victim was at Jose's home in Texas, the victim "went missing.”
Jose never saw his son alive again. Jose stated that the victim was physically “one hundred
percent normal and healthy,” did not have any mental difficulties, and did not wear diapers
before he disappeared. Jose identified a photograph of the victim taken prior to his death
which was admitted into evidence.
On cross-examination by Patlan’s counsel,' Jose testified that he went to Nashville to
search for the victim approximately two months after he disappeared. Jose stated that the
children were originally with his wife in Mexico before they moved to Houston with him.
Martha Bernece Cisneros Patlan (“Bernece”), Patlan's and Jose's oldest child, testified that
she was present when Patlan took the victim from their father's residence in Texas. Bernece
stated that Dorantes was with Patlan at the time the victim was taken. She saw Patlan put
the victim in a black car, which was the last time she had seen the victim alive. Bernece
identified both Patlan and Dorantes in open court at trial.
On cross-examination by Dorantes' counsel, Bernece testified that she did not know
Dorantes' identity at the time the victim was taken. Bernece was only able to identify
Dorantes after she saw photographs of Dorantes on the news and learned of the victim's
death several months later.
Antonia Patlan (“Antonia”), Patlan's sister, testified that in February of 2003, Patlan came to
her apartment in Nashville and asked for money. Patlan told her that she needed the money
"to buy a cream because [the victim] had been burned.” Patlan told Antonia that the victim
"had burned himself with some corn cobs that she was cooking." Antonia gave Patlan forty
dollars to buy the medicine. A week later, Patlan returned to Antonia's apartment to store
some items and told Antonia that she was going on a trip. Antonia then asked to see the
victim, who was waiting inside a white van driven by Dorantes. Upon seeing the victim,
Antonia touched his head and asked “what happened to you, my child?” She was unable to
understand the victim's response. Antonia stated that the victim appeared to be sitting "in a
position like maybe not to hurt himself," protecting his buttock area. Dorantes then said,"
'Let’s go, let's go woman, let's go, woman.’ “ Antonia stated that she could not distinguish the
color of the victim’s clothes at the time because it was dark outside. She only remembered
that he was fully clothed in dark clothing and did not see his feet.
On cross-examination by Dorantes’ counsel, Antonia testified that Patlan and her family
traveled frequently and never rented an apartment or stayed in one place. On crossexamination by Patlan’s counsel, Antonia testified that Patlan seemed concerned and
worried when she asked for the money to buy the medicine for the victim and that Dorantes
was in a hurry to leave for the trip.
*3 Maria Patlan-Cano (“Maria”), Patlan's other sister, testified that she observed the victim's
appearance while he was in Mexico and in Nashville. While in Mexico, the victim was

https://nextcorrectional.westlaw.com/Document/Ic91010cbde651 Idea82ab9... 8/l 1/2020

'I

;

;

i

)

\

)

*

State v. Dorantes | WestlawNext

Page 3 of]3

“chubbier” and "very happy.” When Maria saw him in Nashville, the victim was “very thin and
very crestfallen.” Maria stated that on February 20, 2003, Patlan came to her job crying and
asking for money because the victim was very sick and needed medicine. Maria stated that
Patlan told her that the victim had been burned from com on the cob and that she was very
afraid that he was going to die. Maria went outside and asked to see the victim, who was
inside a white van driven by Dorantes. Dorantes declined her request, stating that he had to
move the van because he was blocking traffic. After Dorantes moved the van away from
traffic, Maria went into the van. Upon entry, she screamed “why was the child like this, why
was the child like that?” Maria stated that the victim did not move when she called his name.
She noticed that the victim was "very skinny” and that his foot was bandaged. Patlan then
told Maria to leave the vehicle because Dorantes was angry. While Patlan was crying,
Dorantes told Patlan to get in the van. As Maria was getting out of the van, the van began to
move. Maria stated that she was able to get the license plate number of the van to give to
the police. In a photograph taken of the victim at the park, Maria identified the victim's body
and stated that he was wearing the same clothes when she saw him on February 20, 2003.
On cross-examination by Patlan’s counsel, Maria testified that Patlan was scared when
Dorantes became angry at her. She stated that Dorantes asked her (Maria) to leave the van
when she was asking questions about the victim.'
Maria was recalled to testify by the State. She testified that she asked Dorantes why he did
not give the victim any medicine or take the victim to the doctor. Dorantes replied that “since
he wasn't [the victim's] father he didn’t have any reason to want to make [the victim] get
better.” Maria then asked Dorantes why he took the victim away from his father. Dorantes
said that "he didn't want to bring [the victim] but that [expletive referring to Patlan] wanted it
to happen.”
On cross-examination by Dorantes' counsel, Maria acknowledged that she did not mention
the above conversation with Dorantes in her sworn affidavit.
Juan Sanchez (“Juan”), Maria's brother-in-law, testified that Maria asked him to call the
police after her encounter with Dorantes and Patlan. Juan also officially identified the victim's
body when it was found in the park.
Keith Sutherland, a detective with the Metropolitan Nashville Police Department, testified
that fugitive extradition warrants were issued for Dorantes and Patlan. Detective Sutherland
stated that he assisted in transporting Dorantes and Patlan from Mexico back to Nashville.
Sara Bruner, a detective with the Youth Services Division of the Metropolitan Nashville
Police Department, testified that she was assigned to investigate the victim's death. She
received a report taken by patrol officers that some children were “in poor condition" and “in
a state of shock”. On February 21, 2003, as part of Det. Bruner's investigation, she
telephoned Juan Sanchez whose number was listed in the report. Based on her
conversation with Sanchez, Det. Bruner issued a notice to other police officers to be on the
look out for the van Dorantes and Patlan were driving. Days later, Det. Bruner learned that
the victim was found dead in a park. She stated that Dorantes and Patlan were the only
suspects in the case. In 2006, Det. Bruner learned that Patlan was in Mexico.
*4 Brad Corcoran, a detective with the Homicide Division of the Metropolitan Nashville Police
Department, testified that he responded to a call that a child’s body was found in West Park.
Detective Corcoran stated that the victim's body “appeared [as though] it had been placed
[in the park] rather than [having] walked there” because the victim did not have any debris on
the bottom of his socks and there was no debris or vegetation around the victim that had
been moved. He noticed that the body was fully clothed except for shoes or a jacket.
Detective Corcoran stated that the body was behind a dirt mound and would not have been
seen by anyone from the road or the park's parking lot. Detective Corcoran concluded that
the body had not been there long because it had snowed the night before, and no snow was
present on the body. There were also several people present in the park on the previous
day. On February 24, 2003, Dorantes and Patlan were named as suspects, and warrants
were issued for their arrest. After approximately three years of media coverage and tips,
Dorantes and Patlan were arrested in Mexico and brought back to Nashville.
Carla Aaron with the Department of Children's Services testified that all caregivers are
responsible for providing proper nutrition, medical treatment, and a safe environment for a
child. After becoming aware of the victim's death, Aaron inquired about past complaints
involving the victim and his siblings, but none were found. She testified that if a medical

https://nextcorrectional.westlaw.com/Document/Ic910IOcbde651 Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 4 of 13

provider had seen the victim's condition, the provider should have reported it to the
Department of Children's Services.
Amy R. McMaster, the Deputy Chief Medical Examiner for Davidson County and a practicing
physician, testified that on February 24. 2003, she performed an autopsy of the victim's
body. Dr. McMaster outlined the injuries sustained by the victim that were consistent with
child abuse. The external examination of the victim revealed "multiple injuries of varied ages
over virtually every surface of [the victim’s] body.” The victim had bandages wrapped around
his feet and was wearing a diaper. Dr. McMaster concluded that the diaper was used to
absorb blood caused by scabbing over burns that were on his buttocks and genitals. She
explained the victim had sustained extensive burn injuries to his feet, buttocks, scrotum, and
penis. The burn injuries were consistent with the victim having been intentionally placed in
water over 150 degrees by an adult caregiver. She stated that the burns were inconsistent
with injuries caused by cooking corn cobs. The burns to the victim's feet would have
prevented him from walking and the burns to his buttocks would have prevented him from
sitting comfortably. The burns were from a couple of days to a couple of weeks old. Dr.
McMaster stated that the victim had sustained scars on his face and multiple bruises and
puncture wounds on other areas of his body. The puncture wounds were consistent with
having been poked with “some type of pointed instrument." The injuries on the skin were at
different stages of healing.
*5 Examination of the victim’s internal injuries revealed that he had sustained blunt trauma to
his brain and skull. Changes to his organs "suggested [that] he had an infection throughout
his body.” Dr. McMaster stated that the victim had "fluid that accumulated in different body
spaces, which could indicate that because of the infection or for other reasons his organs
began to fail," and that he would have died from the infection. Dr. McMaster stated that the
most significant injury to the victim was the blunt force trauma to his head consisting of an
abrasion on a portion of his left ear, a skull fracture, and bleeding around the brain caused
by something striking his head. The swelling of the victim’s brain indicated that the brain
injuries were more recently sustained. Dr. McMaster stated that the victim likely died within
"a couple of hours after the head injury was inflicted." She opined that the blunt force head
trauma was “non-accidental.” She reasoned that the victim "was not able to get up and walk
around, interact with his surroundings. [The victim] basically, from his burns, would have
been immobile. He would have been ... lying [sic] in one place. So there's really no
mechanism for him getting this blunt trauma to his head unless it’s inflicted by another
individual.” She further opined that bruises found on the victim’s right hand possibly indicated
that he attempted to protect his head or other body parts from the blunt force trauma. Dr.
McMaster also discovered an old contusion on the right side of the victim’s brain, indicating
that he had previously sustained blunt force head trauma.
In order to assist the medical examiner in explaining the autopsy, the following photographs
of the victim's body illustrating his injuries were admitted into evidence and displayed to the
jury: (1) a photograph of the victim's lower back, Exhibit No. 7-E, (2) a photograph of the
burns on the victim's back, buttocks, right hand, and elbow, Exhibit No. 7-0; (3) a
photograph of the bums on the victim's buttocks, legs, and feet, Exhibit No. 7-P; (4) a
photograph of the burns on the victim's legs and feet, Exhibit No. 7-J; (5) a photograph of the
burns on the victim's right leg and foot, Exhibit No. 7-N; (6) a photograph of the burns on the
bottom of the victim’s left foot, Exhibit No. 7-X; and (7) a photograph of the injury to the
victim's elbow, Exhibit No. 7-R.
Dr. McMaster also testified that the victim's injuries indicated that he had been physically
neglected. She stated that the victim had untreated, infected burns on his body, and the
bacteria from these infections had spread throughout his body. She also stated that the
victim was “very thin” and “malnourished.... [H]is ribs were very easily seen beneath his
skin.” At the time of the victim's death, he weighed thirty-four pounds with "just a little bit of
thick fluid" in his stomach. Dr. McMaster did not recall examining the victim’s colon or large
bowel contents to determine if he had recently eaten. Despite the victim’s blunt trauma to his
head, Dr. McMaster stated the victim would have died if the infections from the burns
remained untreated. Based on the combination of these injuries, Dr. McMaster concluded
the victim's cause of death was Battered Child Syndrome, "a medical diagnosis used to
describe a child who has been subjected to repeated bouts of severe physical child abuse.”
The term is also used to characterize injuries involving neglect. Dr. McMaster stated that the
manner of the victim's death was homicide.
*6 Neither Dorantes nor Patlan presented any proof at trial.

https://nextcoiTectional.westlaw.com/Document/Ic910IOcbde651 Idea82ab9... 8/1 1/2020

State v. Dorantes I WestlawNext

Page 5 of 13

At the conclusion of the trial, the jury found Dorantes guilty of first degree felony murder and
aggravated child abuse. The trial court imposed a mandatory life sentence for the first
degree murder conviction and set a date for a sentencing hearing for the aggravated assault
conviction.
Sentencing Hearing. At the sentencing hearing, the presentence report was admitted into
evidence, which showed that Dorantes had been previously convicted in Texas for
misdemeanor offenses consisting of assault and theft charges. Neither the State nor
Dorantes presented any live testimony. Following a detailed review of the evidence
presented at trial and the sentencing hearing, the trial court imposed a sentence of twentytwo years at 100% for the aggravated child abuse conviction to be served consecutively to a
mandatory life sentence for the first degree felony murder conviction.
ANALYSIS
I. Sufficiency of the Evidence. Dorantes argues the record is insufficient to support both
his convictions for first degree felony murder based on aggravated child abuse and his
conviction for aggravated child abuse. He contends that the above convictions were based
solely upon circumstantial evidence that does not exclude every reasonable hypothesis
except that of his guilt. He claims "while any of the State's theories of guilt are possible, a
conviction based on any such theory would be contrary to this Court's decision in State v.
Hix, 696 S.W.2d 22, 25 (Tenn.Crim.App.1994) [overruled on unrelated issue by State v.
Messamore, 937 S.W.2d 916, 919 (Tenn.1996).]" He lastly argues the evidence is
insufficient as a matter of law to establish beyond a reasonable doubt that he knowingly
committed or attempted to treat the victim in such a manner as to inflict injury. The State
argues the evidence is sufficient to support the convictions. Because the record is devoid of
. any proof showing Dorantes inflicted physical injury upon the victim, his conviction for
aggravated child abuse must be reversed and vacated. However, we conclude that the
evidence was sufficient for the jury to find Dorantes guilty of first degree felony murder by
aggravated child abuse through neglect.
Our analysis of the above issue is guided by the well-established rule that the State, on
appeal, is entitled to the strongest legitimate view of the evidence and all reasonable
inferences which may be drawn from that evidence. State v. Bland, 958 S.W.2d 651, 659
(Term.1997). When a defendant challenges the sufficiency of the evidence, this court must
consider “whether, after viewing the evidence in the light most favorable to the prosecution,
any rational trier of fact could have found the essential elements of the crime beyond a
reasonable doubt." Jackson v. Virginia, 442 U.S. 307, 319. 99 S.Ct. 2781,2789 (1979).
Similarly, Rule 13(e) of the Tennessee Rules of Appellate Procedure states, “Findings of
guilt in criminal actions whether by the trial court or jury shall be set aside if the evidence is
insufficient to support the finding by the trier of fact of guilt beyond a reasonable doubt." Guilt
may be found beyond a reasonable doubt in cases where there is direct evidence,
circumstantial evidence, or a combination of the two. State v, Matthews, 805 S.W.2d 776,
779 (Tenn.Crim.App.1990) (citing State v. Brown, 551 S.W.2d 329, 331 (Tenn.1977);
Farmer v. State, 208 Tenn. 75, 343 S.W.2d 895, 897 (Term. 1961)). The trier of fact must
evaluate the credibility of the witnesses, must determine the weight given to witnesses'
testimony, and must reconcile all conflicts in the evidence. State v. Odom, 923 S.W .2d 18,
23 (Tenn.1996). When reviewing issues regarding the sufficiency of the evidence, this court
shall not "reweigh or reevaluate the evidence.” State v. Philpott, 882 S.W.2d 394, 398
(Tenn.Crim.App.1994) (citing State v. Cabbage, 571 S.W.2d 832, 836 (Tenn.1978),
superseded by statute on other grounds as stated in State v. Barone, 852 S.W.2d 216, 218
(Tenn. 1993)). This Court has often stated that “[a] guilty verdict by the jury, approved by the
trial judge, accredits the testimony of the witnesses for the State and resolves all conflicts in
favor of the prosecution's theory.” State v. Bland, 958 S.W.2d 651, 659 (Tenn.1997) (citation
omitted). A guilty verdict also “removes the presumption of innocence and replaces it with a
presumption of guilt, and the defendant has the burden of illustrating why the evidence is
insufficient to support the jury's verdict." Id. (citing State v. Tuggle, 639 S.W.2d 913, 914
(Tenn.1982)).
*7 We also recognize that “(i]n the absence of direct evidence, a criminal offense may be
established exclusively by circumstantial evidence.” State v. Hanson. 279 S.W.3d 265, 275
(Tenn.2009) (citing Duchac v. State. 505 S.W.2d 237, 241 (Tenn.1973); Marable v. State,
203 Tenn. 440, 313 S.W.2d 451,456-58 (Tenn. 1958)). In such a case, the evidence "must
be so strong and cogent as to exclude every other reasonable hypothesis save the guilt of
the defendant, and that beyond a reasonable doubt.” State v. Crawford, 225 Tenn. 478, 470
S.W.2d 610. 612 (Tenn.1971). In addition, the evidence ‘'must be not only consistent with
the guilt of the accused but it must also be inconsistent with his innocence and must exclude

https://nextcorrectional.westlaw.com/Document/Ic91010cbde651 Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 6 of 13

every other reasonable theory or hypothesis except that of guilt.” Pruitt v. State, 3
Tenn.Crim.App. 256. 460 S.W.2d 385, 390 (Tenn.Crim.App.1970). In other words, “[a] web
of guilt must be woven around the defendant from which he cannot escape and from which
facts and circumstances the jury could draw no other reasonable inference save the guilt of
the defendant beyond a reasonable doubt.” Crawford, 470 S.W.2d at 613. The trier of fact
decides the weight to be given to circumstantial evidence, and " ‘[t]he inferences to be drawn,
from such evidence, and the extent to which the circumstances are consistent with guilt and
inconsistent with innocence, are questions primarily for the jury.’" Marable. 313 S.W.2d at
457 (quoting 2 Wharton's Criminal Evidence 1605-06).
We will address the first degree felony murder in the perpetration of aggravated child abuse
first. As previously stated, Dorantes was initially indicted for first degree felony murder in the
perpetration of aggravated child abuse. Following his extradition from Mexico, the State
superseded the indictment and additionally charged Dorantes with first degree felony murder
based on aggravated child neglect. By consent from the State, Dorantes' motion to dismiss
the felony murder based on child neglect offense in count three was granted because it
violated the extradition agreement. The remaining felony murder indictment charged, in
count one, that Dorantes “did kill Luis Osvaldo Cisneros (d.o.b.7/16/98), during the
perpetration of or attempt to perpetrate Aggravated Child Abuse, in violation of Tennessee
Code Annotated § 39-13-202." Interpreting the indictment as charging felony murder during
the perpetration of aggravated child abuse based on serious bodily injury by physical abuse
alone, Dorantes contends that the indictment should be dismissed as a matter of law
because there was no proof at trial that he was the person who inflicted the victim's fatal
injuries. In other words, Dorantes argues the indictment varied fatally from the proof
presented at trial. In response, the State emphasizes that the victim was at all pertinent
times in Dorantes' care and that the jury resolved the issue of identity against Dorantes;
therefore, the evidence is sufficient to support both of Dorantes' convictions.
*8 Because the law governing child abuse changed between the commission of the offenses
charged in this case and Dorantes' trial and sentencing, a discussion of the child abuse and
neglect law applicable at the time of the instant offense is necessary. See T.C.A. § 39-11112 (1997) (“When a penal statute or penal legislative act of the state is repealed or
amended by a subsequent legislative act, the offense, as defined by the statute or act being
repealed or amended, committed while the statute or act was in full force and effect shall be
prosecuted under the act or statute in effect at the time of the commission of the offense.”).
Tennessee Code Annotated section 39-13-202, in relevant part, defined first degree murder
as “[a] killing of another committed in the perpetration of or attempt to perpetrate any ...
aggravated child abuse.” T.C.A. § 39-13-202(a)(2) (Supp.2002). The statute governing
aggravated child abuse stated, in relevant part:
(a) A person commits the offense of aggravated child abuse or aggravated child neglect
who commits the offense of child abuse or neglect as defined in § 39-15-401 and:
(1) The act of abuse or neglect results in serious bodily injury to the child; or
(2) A deadly weapon is used to accomplish the act of abuse.
T.C.A. § 39-15-402(a) (Supp.2002). Finally, Tennessee Code Annotated section 39-15-401
(a) (Supp.2002), '* the statute governing child abuse and neglect at the time of the instant
offense, provided:
Any person who knowingly, other than by accidental means, treats a child under eighteen
(18) years of age in such a manner as to inflict injury or neglects such a child so as to
adversely affect the child’s health and welfare commits a Class A misdemeanor; provided,
however, that if the abused or neglected child is six (6) years of age or less, the penalty is
a Class D felony.
" ‘Serious bodily injury1 means bodily injury which involves a substantial risk of death;
protracted unconsciousness; extreme physical pain; protracted or obvious disfigurement; or
protracted loss or substantial impairment of a function of a bodily member, organ or mental
faculty.” T.C.A. § 39-11-106(a)(34). “ 'Bodily injury’ includes a cut, abrasion, bruise, burn or
disfigurement; physical pain or temporary illness or impairment of the function of a bodily
member, organ, or mental faculty[.]” Id. § -106(a)(2).
In State v. Mateyko, the Tennessee Supreme Court described the above version of the child
abuse and neglect statute as "a single offense that may be committed through one of two
courses of conduct: child abuse through injury and child abuse through neglect." 53 S.W.3d

https://nextcorrectional.westlaw.com/Document/lc91010cbde651 Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 7 of 13

666. 668 n. 1 (Term.2001); State v. Hodges, 7 S.W.3d 609, 622 (Tenn.Crim.App.1998).
Aggravated child abuse is similarly established by either of these methods, plus serious
bodily injury to the child. T.C.A. § 39-l5-402(a)(1) (Supp.2002); Hodges, 7 S.W.3d at 62223; State v. Ducker, 27 S.W.3d 889. 895-96 (Tenn.2000). More specifically, in Hodges, this
court held that the term "child abuse," as charged in an indictment, included child neglect.
Hodges. 7 S.W.3d at 622-23. The Hodges court reasoned, “[cjhild abuse as defined in § 3915-401 encompasses § 39-15-401 (a) in its entirety[.]” We have also previously concluded
that “the legislature fully intended for aggravated child abuse to include child abuse through
neglect that results in serious bodily injury. The language of the statute supports such an
interpretation." State v. John and Rita Adams, No. 02C01-9707-CR-00246, 1998 WL
389066, at *4 (Tenn.Crim.App.. at Jackson, July 14, 1998), affd, 24 S.W.3d 289 (Tenn. June
30, 2000); but see State v. Denise Maupin, No. 272, 1991 WL 197420, at * 5
(Tenn.Crim.App., at Knoxville, Oct. 7, 1991), (stating that child abuse as proscribed in a child
abuse murder statute did not include child neglect) aff'd, 859 S.W.2d 313 (Tenn. Aug.2,
1993).
*9 Based on the above authority, when the term “child neglect” is not expressly included
within the indictment, a defendant remains on notice “that he could be convicted for both
felony murder with the underlying felony of aggravated child abuse through injury, as well as
for the underlying felony of aggravated child abuse through neglect, regardless of whether
the jury convict [s] him based on the theory of child abuse or child neglect.” S/afe v. Blake
Delaney Tallant, No. E2006-02273-CCA-R3-CD. 2008 WL 115818, at *23 (Tenn.Crim.App.,
at Knoxville, Jan. 14, 2008). Accordingly, Dorantes’ fatal variance argument must fail
because the indictment under which he was convicted embraced both modes or courses of
conduct for the commission of child abuse. See also T.C.A. § 40-13-206 (1997) (“When the
offense may be committed by different forms, by different means or with different intents, the
forms, means or intents may be alleged in the same count in the alternative.”).
In light of the above conclusion, we must now determine whether the evidence is sufficient
for a jury to find Dorantes guilty of felony murder based on aggravated child abuse through
infliction of physical injury or felony murder based on aggravated child abuse through
neglect, and aggravated child abuse. First, we agree with Dorantes and conclude that his
convictions for felony murder based on a theory of child abuse through infliction of injury and
aggravated child abuse cannot be sustained. Unlike the felony murder count in the
indictment, the aggravated child abuse count expressly provided that Dorantes “did
knowingly, other than by accidental means, treat [the victim], a child six (6) years of age or
less in such a manner as to inflict injury [.]” Our review of the record shows that the State
never argued that Dorantes inflicted the victim's fatal injuries and did not offer any proof in
support of this theory. Although poorly articulated, the State argued throughout trial and
during closing argument that Dorantes failed to provide the victim with necessary medical
treatment. Accordingly, the conviction for felony murder based on a theory of aggravated
child abuse through infliction of injury and the conviction for aggravated child abuse are not
supported by the proof in this case. As such, the aggravated child abuse conviction must be
reversed and vacated.
With the above conclusion, State v. Hix becomes inapplicable. It is important to note that the
defendants in Hix were convicted of one count of assault and battery and one count of child
abuse.4 Rather than evidence showing abuse by neglect, the only proof presented by the
State in Hix supported a theory that either or both of the defendants committed the abuse by
inflicting injuries upon the child. In reversing, this court held that because the defendants'
convictions were based upon circumstantial evidence alone, the evidence was insufficient to
prove beyond a reasonable doubt which defendant committed the offense; that is, inflicted
the injuries upon the child. In contrast, the proof presented in this case showed that the co­
defendant was responsible for inflicting the burn injuries upon the child. Accordingly, the
holding in Hix does not apply because the evidence presented by the State against Dorantes
supported a theory of abuse based on neglect. As such, Dorantes is not entitled to relief on
this issue.
*10 We must now examine the sufficiency of the convicting evidence supporting the felony
murder by aggravated child abuse conviction under a theory of neglect. Prior to being taken
by the co-defendant and Dorantes, the victim lived with his biological father and was “one
hundred percent normal and healthy.” Sometime in February 2003, the co-defendant went to
her sister's apartment and asked for money because the victim “had burned himself with
sorVie corn cobs that she was cooking.” A week later, the co-defendant returned to the same
apartment, and the victim was observed sitting inside a van driven by Dorantes "in a position
like maybe not to hurt himself.” protecting his buttock area. Maria, the co-defendant's other

https://nextcorrectional.westlaw.coin/Document/Ic9l010cbde65l Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 8 of 13

sister, testified that on February 20, 2003, the co-defendant came to her job crying and
asked for money because the victim was very sick and needed medicine. Maria then
observed the victim inside a van driven by Dorantes. When Maria saw the victim's condition,
she screamed "why was the child like this ... ?” She asked Dorantes why he did not give the
victim any medicine or take the victim to the doctor, and Dorantes replied “since he wasn't
[the victim's] father he didn't have any reason to want to make [the victim] get better.” She
then asked Dorantes why he took the victim away from his father, and Dorantes said that "he
didn't want to bring [the victim] but that [expletive referring to Patlan] wanted it to happen.”
Maria called the victim's name when she saw him in the van, and the victim did not move.
She also confirmed that the clothes the victim was wearing when she saw him that day,
were the same clothes he was wearing when his body was found three days later.
In addition, the medical examiner testified that the victim had been physically neglected. She
testified that the burns to the victim’s body had become infected, which indicated they were
between two days to two weeks old. She explained that given the combination of the victim's
injuries, the victim's cause of death was Battered Child Syndrome, “a medical diagnosis
used to describe a child who has been subjected to repeated bouts of severe physical child
abuse.” She further explained that this term is also used to characterize injuries involving
neglect. Finally, despite the victim's blunt trauma to his head, the medical examiner testified
that the victim would have soon died had the infections from the burns remained untreated.
Based on the above proof, we conclude that the evidence was sufficient to support
Dorantes’ conviction for felony murder during the perpetration of aggravated child abuse
through neglect. The evidence showed that Dorantes knowingly failed to provide the victim
with any medical assistance which resulted in the victim's serious bodily injuries. See e.g.
State v. Kathryn Lee Adler, No. W2001-00951-CCA-R3CD, 2002 WL 1482704 at * 5
(Tenn.Crim.App., at Jackson, Feb. 19, 2002) (stating that although evidence did not show
that the victim's injury "was a result of the convicted offense of aggravated child neglect
rather than child abuse, it clearly established] that the victim was subjected to “a substantial
risk of death” and "extreme physical pain” due to the defendant's neglecting to seek prompt
medical attention.”) app. denied (Tenn. Sept. 9, 2002). The record shows the facts
presented by the State support a jury verdict of felony murder during the perpetration of
aggravated child abuse based upon the neglect of the victim "so as to adversely affect the
child's health and welfare,” resulting in serious bodily injury. Accordingly, Dorantes is not
entitled to relief on this issue.
*11II. Photographs of Victim’s Injuries. Dorantes contends the trial court erred in allowing
the State to introduce certain photographs of the victim's body because “they were not
relevant to prove any fact at issue in this case, or, even if relevant, were so gruesome as to
cause distress to any juror and prejudice him.” The State argues that the probative value of
the photographs outweighed any prejudicial effect.
The trial court has discretion regarding the admissibility of photographs, and a ruling on this
issue “will not be overturned on appeal except upon a clear showing of an abuse of
discretion.” State v. Banks, 564 S.W.2d 947, 949 (Tenn.1978), cert, denied, 526 U.S. 1071
(1999). A photograph must be "verified and authenticated by a witness with knowledge of
the facts” before it can be admitted into evidence. Id. In addition, a photograph must be
relevant to an issue that the jury must determine before it may be admitted. State v. Vann,
976 S.W.2d S3, 102 (Tenn. 1998) (citing Sfafe v. Stephenson, 878 S.W.2d 530, 542
(Tenn.1994); Banks. 564 S.W.2d at 951.). However, if the photograph's “prejudicial effect
outweighs its probative value,” it should not be admitted. See Tenn. R. Evid. 401 and 403;
Banks. 564 S.VV.2d at 951. A relevant photograph “may be excluded if its probative value is
substantially outweighed by the danger of unfair prejudice, confusion of the issues, or
misleading the jury, or by considerations of undue delay, waste of time, or needless
presentation of cumulative evidence.” Banks, 564 S.W.2d at 951. Unfair prejudice has been
defined by the Tennessee Supreme Court as "[a]n undue tendency to suggest decision on
an improper basis, commonly, though not necessarily, an emotional one." Id. Photographs
must never be used “solely to inflame the jury and prejudice them against the defendant.” Id.
Dr. McMaster testified that the autopsy photos were necessary to explain her medical
testimony. The record reflects that a total of thirty-nine (39) photographs were submitted for
the trial court to review. Although the trial court engaged in a lengthy discussion, considering
the relevance of the photos as well as weighing their probative value against any unfair
prejudicial effect, the trial court did not specify which photos it referred to on the record.
Nevertheless, the trial court excluded twenty-six (26) of the thirty-nine (39) photographs. We
have also specifically reviewed the photographs admitted during the medical examiner's

https://nextcorrectional.westlaw.com/Document/Ic91010cbde651 Idea82ab9... 8/1 1/2020

State v. Dorantes | WestlawNext

Page 9 of 13

testimony and conclude that the trial court did not abuse its discretion by their admission.
Accordingly. Dorantes is not entitled to relief on this issue.
II). Denial of Special Jury Instruction on Aggravated Child Abuse. Dorantes argues that
the trial court erred when it refused to provide the jury with a special instruction that "would
have ensured that the jury ... returned verdicts based on acts of abuse, and not a continuing
course of neglect.” The State argues that the trial court did not err in refusing the special
instruction, that this court has previously rejected the same argument in Hodges. 7 S.W.Sd
at 622, and that the supplemental jury instruction was unwarranted because the trial court's
instruction was a proper statement of the law and was consistent with the indictment.
*12 The right to trial by jury is guaranteed by the United States and Tennessee
Constitutions. U.S. Const, amend. VI; Tenn. Const, art. I, § 6. It follows that a defendant also
has a right to a correct and complete charge of the law, so that each issue of fact raised by
the evidence will be submitted to the jury on proper instructions. State v. Garrison. 40
S.W.3d 426, 432 (Tenn.2000). Additionally, special instructions are given “to supply an
omission or correct a mistake made in the general charge, to present a material question not
treated in the general charge, or to limit, extend, eliminate, or more accurately define a
proposition already submitted to the jury." State v. Cozart, 54 S.W.3d 242, 245 (Tenn.2001).
The refusal to grant a special request for instruction is error only when the general charge
does not fully and fairly state the applicable law. Id. On appellate review, a jury instruction
must be considered in its entirety and read as a whole rather than in isolation. State v.
Leach, 148 S.W.3d 42, 58 (Tenn.2004).
Here, Dorantes requested the trial court to instruct the jury as follows:

For you to find the accused guilty of aggravated child abuse the State must
prove that the defendant affirmatively committed an abusive action which
resulted in serious bodily injury to the victim. Failure by either defendant to
protect or seek treatment is not proof of abuse as to satisfy the elements of
child abuse.

The trial court declined to provide the jury with the above instruction and instead instructed
them, in relevant part, as follows:
Any person who commits the offense of aggravated child abuse is guilty of a crime.
For you to find the defendant guilty of this offense, the state must have proven beyond a
reasonable doubt the existence of the following essential elements: (1) that the defendant
did knowingly, other than by accidental means, treat a child in such a manner as to inflict
injury; and (2) that the act of abuse resulted in serious bodily injury[.]
We acknowledge that following the 2005 amendment to the child abuse and neglect statute,
this Court noted that when a defendant is charged with both aggravated child abuse and
aggravated child neglect, the trial court should issue a jury instruction that jurors may find
the defendant guilty of one of the two charged offenses, but not both. State v. Vernita
Freeman, No. W2005-0294-CCA-R3-CD, 2007 WL 426710, at *9 (Tenn.Crim.App., at
Jackson. Feb. 6, 2007). This Court specifically stated:

The determination of whether the State is preceding upon alternative theories
of prosecution or upon separate and distinct crimes should be resolved at a
jury instruction conference in order that the jury may be properly instructed
with regard to their verdict. Obviously, if the State is proceeding upon
alternative theories, the jury should be instructed that they can find the
defendant guilty of one or the other of the theories, but not both.

*13 Id.; see also State v. Randy Lee Ownby, No. M2007-01367-CCA-R3-CD, 2009 WL
112582, at *17 (Tenn.Crim.App., at Nashville, Jan. 14, 2009). However, based on our prior
discussion of the law applicable at the time of the instant offense, we conclude that the trial
court provided the jury with a correct and complete charge of the law. Dorantes is not
entitled to relief on this issue.
IV. Election of Offenses. Here, Dorantes argues that the trial court erred in denying his
request to require the State to make an election of offenses because the State presented

https://nextcorrectional.westlaw.coin/Document/Ic91010cbde651 Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 10 of 13

evidence that the victim sustained head trauma as well as infected burns, bruises,
abrasions, and puncture wounds. Relying on State v. Adams, 24 S.W.3d 289, 294
. (Tenn.2000), the State argues the trial court properly denied Dorantes' request because the
evidence at trial did not establish multiple discrete acts but instead “established an ongoing
pattern of abuse that ultimately claimed the victim's life.”
The Tennessee Supreme Court has previously held:

[W]hen the evidence indicates the defendant has committed multiple
offenses against a victim, the prosecution must elect the particular offense as
charged in the indictment for which the conviction is sought. This election
requirement serves several purposes. First, it ensures that a defendant is
able to prepare for and make a defense for a specific charge. Second,
election protects a defendant against double jeopardy by prohibiting retrial on
the same specific charge. Third, it enables the trial court and the appellate
courts to review the legal sufficiency of the evidence. The most important
reason for the election requirement, however, is that it ensures that the jurors
deliberate over and render a verdict on the same offense. This right to a
unanimous verdict has been characterized by this Court as fundamental,
immediately touching on the constitutional rights of an accused....

Adams, 24 S.W.3d at 294 (internal citations and quotations omitted).
In addition, "[wjhere the State presents evidence of numerous offenses, the trial court must
augment the general jury unanimity instruction to insure that the jury understands its duty to
agree unanimously to a particular set of facts.” State v. Hodge. 989 S.W.2d 717, 721
(Tenn.Crim.App.1998). Failure to issue a jury instruction on election to insure unanimity
constitutes reversible error. Id.
We conclude that election was not required in this case. As discussed in Hodges, supra, a
defendant convicted of felony murder by aggravated child abuse "could only have been
convicted of the same offense: a killing committed in perpetration of or attempt to perpetrate
aggravated child abuse....” Hodges, 7 S.W.3d at 624. Presenting two alternative means for
culpability for a single offense does not pose a threat to the defendant's constitutional rights.
Id. Accordingly, under the law at the time of the instant offense, the State was not required to
elect a theory of prosecution. Id. at 625. Dorantes is not entitled to relief on this issue.
*14 V. Sentencing. Dorantes contends that his twenty-two-year sentence for aggravated
child abuse was excessive. Specifically, Dorantes argues the trial court applied
enhancement factors based on facts not found by a jury in violation of Blakely v.
Washington, 542 U.S. 296, 124 S.Ct. 2531, 159 L.Ed.2d 403 (2004). In addition, Dorantes
claims the trial court further erred by ordering the twenty-two-year aggravated child abuse
sentence to be served consecutively to the previously imposed sentence of life
imprisonment for first degree felony murder based on aggravated child abuse. In response,
the State concedes the trial court erred when it applied certain enhancement factors but
maintains that Dorantes’ sentence is sufficiently supported by his criminal history. The State
also contends the trial court properly imposed a consecutive sentence. We have already
determined that the aggravated child abuse conviction must be reversed and vacated.
Nevertheless, we hold that Blakely was violated and reduce the aggravated child abuse
conviction sentence to twenty-one years. We further conclude that consecutive sentencing
was proper.
Conclusion
We conclude that the evidence was insufficient to support Dorantes’ aggravated child abuse
conviction. However, we also conclude that the evidence was sufficient to support Dorantes’
conviction of felony murder by aggravated child abuse through neglect. We further conclude
that the trial court properly denied Dorantes' motions to require the state to elect which
prosecution theory it was relying upon at trial and to provide the jury with a special jury
instruction, Accordingly, we reverse the judgment of the trial court in regard to the
aggravated child abuse conviction. The judgment of the trial court in regard to the felony
murder conviction is affirmed.

JOSEPH M. TIPTON, P.J., filed a concurring and dissenting opinion.
JOSEPH M. TIPTON, P.J.. concurring and dissenting.

https://nextcorrectional.westlaw.com/Document/lc9l010cbde651 Idea82ab9... 8/11/2020

V

r

State v. Dorantes | WestlawNext

Page 11 of 13

I concur with most of the decisions and reasoning in the majority opinion, including the
reversal of the aggravated child abuse conviction for insufficient evidence. I respectfully
dissent, however, from the opinion's affirming the felony murder conviction. I would reverse
and vacate the felony murder conviction, as well.
My position stems from the legislative intent regarding the first degree murder statute and
regarding child abuse and child neglect. See T.C.A. § 39-15-401(a) (Supp.1998) (Amended
2005, 2006). Before 1989, Tennessee Code Annotated section 39-4-401(a) (1982) (repealed
by 1989 Tenn. Pub. Acts ch. 591 § 1) provided as follows:
Child abuse and neglect-Penalty-Procedure-Relation of section to other law.-(a) Any
person who maliciously, purposely, or knowingly, other than by accidental means, treats a
child under eighteen (18) years of age in such manner as to inflict injury or neglects such
a child so as to adversely affect its health and welfare is guilty of a misdemeanor....
*15 In State v. Cynthia Denise Smith, No. 1153, Hamilton County (Tenn.Crim.App. Sept. 20,
1990), this court stated that the 1982 child abuse statute created “two separate ways (abuse
and neglect) by which the offense could be committed and that two separate verdicts would
be appropriate.” Slip op. at 6.
In 1989, the child abuse and neglect statute was re-enacted in the 1989 Code with a similar
definition. At that time, the legislature also created the aggravated child abuse statute which
provided in part:
Aggravated child abuse.-(a) A person is guilty of the offense of aggravated child abuse
who commits the offense of child abuse as defined in § 39-15-401 and:
(1) The act of abuse results in serious bodily injury to the child....
T.C.A. § 39-15-401 (a) (1991). I note that the Sentencing Commission Comments to this
provision view both abuse and neglect offenses to be covered under -402(a).
Beginning in 1988, the first degree murder statute provided in part:
First-degree murder.-... (2) It shall also be murder in the first degree to kill a child less than
thirteen (13) years of age if the child's death results from one (1) or more incidents of a
protracted pattern or a multiple incident of child abuse committed by the defendant against
such child, or if such death results from the cumulative effects of such pattern or incidents.
T.C.A. § 39-2-202 (1988 Supp.) (repealed by 1989 Tenn. Pub. Acts, ch. 591, § 1).
Noting Smith, this court reversed a conviction for child abuse murder under the 1988 first
degree murder statute, when the proof showed only, if anything, neglect. Sfafe v. Denise
Maupin, No. 272, Washington County (Tenn.Crim.App. Oct. 7, 1991), affd 859 S.W.2d 313,
315 (Tenn. 1993) (agreeing with court of criminal appeals that evidence was insufficient). In
so doing, this court concluded that “the legislature did not intend for criminal neglect to be
covered by the child abuse murder statute.” Slip op. at 10. “Mere proof of child neglect is not
proof of child abuse so as to sustain a conviction for child abuse murder.” Id.
In 1992, our supreme court ruled that the child murder statute discussed in Maupin was
unconstitutional. State v. Haie, 840 S.W.2d 307, 313 (Tenn.1992). In response, the
legislature amended the first degree murder statute in part as follows:
First degree murder.-{a) First degree murder is:

(4) A reckless killing of a child less than thirteen (13) years of age, if the child's death
results from aggravated child abuse, as defined by § 39-15-402, committed by the
defendant against the child.
T.C.A. § 39-13-202(a)(4) (Supp.1993). Effective in 1995, however, the legislature amended
the first degree murder statute to provide in part as follows:
First degree murder.-{a) First degree murder is: ...
(2) A killing of another committed in the perpetration of or attempt to perpetrate any first
degree murder, arson, rape, robbery, burglary, theft, kidnapping, aggravated child abuse,
or aircraft piracy....

https://nextcorrectional.westlaw.coin/Document/Ic910]0cbde651 Idea82ab9... 8/11/2020

State v. Dorantes | WestlawNext

Page 12 of 13

*16 T.C.A. § 39-13-202(a)(2) (Supp.1995) (Amended 1998, 2002, 2007). Relevant and
applicable to this case, the legislature again amended the first degree murder statute in
1998 to provide as follows:
First degree murder.-(a) First degree murder is:...
(2) A killing of another committed in the perpetration of or attempt to perpetrate any first
degree murder, arson, rape, robbery, burglary, theft, kidnapping, aggravated child abuse.
aggravated child neglect, or aircraft piracy....
T.C.A. § 39-13-202(a)(2) (Supp.1998) (emphasis added) (amended 2002, 2007). At the
same time, the legislature amended the child abuse and neglect statutes to add the terms
"neglected,” “neglect,” and "aggravated child neglect." For example, Tennessee Code
Annotated section 39-15-402(a) (Supp.1998) (Amended 2005) provided in part:
Aggravated child abuse and neglect.-(a) A person commits the offense of aggravated child
abuse or aggravated child neglect who commits the offense of child abuse or neglect as
defined in § 39-15-401 and;
(1) The act of abuse or neglect results in serious bodily injury to the child....
(Emphasis added).
Our supreme court has stated that Tennessee Code Annotated section 39-15-401 (a) (1997)
proscribed “a single offense that may be committed through one of two courses of conduct:
child abuse through injury and child abuse through neglect.” State v. Mateyko, 53 S.W.3d
666, 668 n. 1 (Tenn.2001). For “ease of reference,” the court referred to child abuse through
neglect as “child neglect.” The fact that the offense could be committed in separate ways
has carried significance in the context of charging instruments. In State v. John E. Parnell,
No. W1999-00562-CCA-R3-CD, Shelby County (Tenn.Crim.App. Feb. 6, 2001), count one
alleged aggravated child abuse by treating the child in a manner so as to inflict injury and
count two charged aggravated child abuse by neglecting the child so as to adversely affect
his health and welfare. The trial court instructed the jury that if it found guilt under count one,
it was not to consider count two. The jury convicted the defendant on count one. This court
concluded that the evidence was insufficient under count one but that the evidence
overwhelmingly established neglect as alleged in count two. Under these circumstances, this
court reversed the conviction for aggravated child abuse in count one but remanded count
two for a new trial.
Obviously, the majority opinion in this case thinks significant the fact that the aggravated
child abuse count specified that the Defendant treated the victim in such a manner as to
inflict serious bodily injury but did not allege anything regarding neglect. In reversing the
abuse conviction for insufficient evidence, it is apparent that my colleagues concluded that
the specific allegation distinguishes this count from the murder count which alleged
"generally" that the Defendant killed the victim “during the perpetration of or attempt to
perpetrate aggravated child abuse, in violation of Tennessee Code Annotated § 39-13-202.”
*17 No case has analyzed the significance of the 1998 addition of aggravated child neglect
to the predicate felonies for first degree felony murder. However, I view it to be significant in
the context of separating aggravated child abuse from aggravated child neglect when
considering what constitutes a particular felony murder. In other words, under that provision,
murder in the perpetration of aggravated child abuse is a separate offense from murder in
the perpetration of aggravated child neglect, no different than murder during the perpetration
of air piracy, for example. In this regard, even though the aggravated child abuse statute is
viewed to cover both abuse and neglect, such is not the case under the 1998 first degree
murder statute.
I assume that if the murder count in the present case had specified that the killing occurred
in the perpetration of the Defendant's knowingly treating the victim in a manner as to cause
serious bodily injury, my colleagues would then conclude that the evidence did not prove the
crime charged. The 1998 first degree murder statute, however, already distinguished
aggravated child abuse from aggravated child neglect. I believe that under the statute,
charging murder in the perpetration of aggravated child abuse did not charge murder in the
perpetration of aggravated child neglect. The very fact that the State in this case chose to
allege aggravated child neglect in a separate count reflects the same belief. Also, the State
did not argue to the jury that the Defendant was guilty of child abuse through neglecting the
injured victim's need for treatment. Rather, the State assailed the Defendant regarding the
injuries inflicted upon the victim, including the final blow the victim received near the time of

https://nextcorrectional.westlaw.com/Docuinent/lc9l010cbde651 Idea82ab9... 8/1 1/2020

\

J

•-r

4

%

State v. Dorantes | WestlawNext

Page 13 of 13

-A

his death. The State's one or two references to the Defendant’s concealing the victim's
injuries without obtaining treatment were not in the context of child neglect but in the context
of concealing the injuries inflicted upon the victim, i.e.. child abuse through injury.
Last, and material to this issue, I note that the aggravated child abuse instruction given to
the jury by the trial court provided that an essential element was “that the defendant did
knowingly, other than by accidental means, treat a child in such a manner as to inflict injury.”
It did not provide the jury with the alternative of aggravated child neglect or of aggravated
abuse through child neglect. Under these circumstances, I do not believe we are in a
position to replace a jury finding regarding one offense with a judicial finding of another
offense that was not submitted to the jury. I would reverse both the felony murder and
aggravated child abuse judgments of conviction and dismiss the charges.

All Citations
Slip Copy, 2009 WL 4250431

1

Footnotes
1

Due to several witnesses having similar names, some of the witnesses will be
referred to by their first or middle name. No disrespect is intended by this
format.

2

Although Genaro Dorantes and Martha L. Patlan-Cano were tried together,
this appeal relates only to Dorantes.

3

Effective July 1, 2005 the child abuse and child neglect statute was amended
to provide:
(a) Any person who knowingly, other than by accidental means, treats a
child under eighteen (18) years of age in such a manner as to inflict injury
commits a Class A misdemeanor; provided, however, that, if the abused
child is six (6) years of age or less, the penalty is a Class D felony.
(b) Any person who knowingly abuses or neglects a child under thirteen
(13) years of age, so as to adversely affect the child's health and welfare,
commits a Class A misdemeanor; provided, that, if the abused or
neglected child is six (6) years of age or less, the penalty is a Class E
felony.
T.C.A. § 39-15-401(a), (b) (Supp.2005). On June 20, 2006, in Public Acts
chapter 939, section 1, the legislature again amended the statute by
changing subsection (b) to read:
Any person who knowingly abuses or neglects a child under eighteen (18)
years of age, so as to adversely affect the child's health and welfare,
commits a Class A misdemeanor....
T.C.A. § 39-15-401 (b) (2006).

4

Tennessee Code Annotated Section 3S-4-401(a) (1982) [repealed 1989,
replaced by T.C.A. § 39-15-4Q1(a) (Supp.1989) ] provided:
(a)Any person who maliciously, purposely, or knowingly, other than by
accidental means, treats a child under eighteen (18) years of age in such
manner as to inflict injury or neglects such a child so as to adversely affect
its health and welfare is guilty of a misdemeanor and upon conviction may
be fined not more than one thousand dollars ($1,000) or imprisoned for
not more than eleven (11) months and twenty-nine (29) days or both.

End of

2020 ThorNeuters. No ciai-n to original U.S. Government Works.

Document:

WestlawNext. © 2020 Thomson Reuters

f<0§ Thomson seirre»s
Thomson Reuters fs'not''providing legal advice

https://nextcorrectional.westlaw.corn/Document/Ic91010cbde651 Idea82ab9... 8/1 1/2020

i

<
t

y

'4

Additional material
from this filing is
available in the
Clerk's Office.

